OFFICE OF INSPECTOR GENERAL
  SEMIANNUAL REPORT
   TO THE CONGRESS




   October 1, 2006 - March 31, 2007
Mission

The mission of the Office of Inspector General (OIG) is to contribute to and support
integrity, efficiency, and effectiveness in all activities of the organizations for which it has
oversight responsibilities.

Values

In accomplishing our mission, OIG is committed to the following:

  • Integrity

  • Excellence

  • Teamwork

Strategic Goals

  • 	Keep the U.S. Agency for International Development, the African Development
     Foundation, the Inter-American Foundation, and Congress fully informed on those
     agencies’ programs and operations and the need for, and progress of, corrective
     actions.

  • 	Promote improvements in the way that USAID advances sustainable development
     and global interests.

  • 	Help USAID achieve management and organizational excellence.

  • 	Promote better management of significant and unplanned matters.

  • 	Preserve and protect USAID program and employee integrity.
CONTENTS

  Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

  Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Strategic Goal 1: Keep the U.S. Agency for International Development,
          the African Development Foundation, the Inter-American Foundation,
          and Congress fully informed on those agencies’ programs and operations
          and the need for, and progress of, corrective actions . . . . . . . . . . . . . . . . . . . . . . . 5

          Strategic Goal 2: Promote improvements in the way that USAID
          advances sustainable development and global interests . . . . . . . . . . . . . . . . . . . . . 7

          Strategic Goal 3: Help USAID achieve management and organizational
          excellence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          Strategic Goal 4: Promote better management of signiﬁcant and
          unplanned matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          Strategic Goal 5: Preserve and protect USAID program and employee
          integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

  General Strategy for African Development Foundation and
  Inter-American Foundation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

  Appendices: Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




                                                                                          SEMIANNUAL REPORT TO THE CONGRESS                      i
MESSAGE FROM THE
INSPECTOR GENERAL
T
          his Semiannual Report to    • 	 Keep USAID, ADF, IAF, and            OIG continues to use a collabora­
          Congress (SARC) presents        Congress fully informed on those     tive, proactive, and results-oriented
          information on the work         agencies’ programs and operations    approach in support of the integrity,
of the United States Agency               and the need for, and progress of,   efﬁciency, and effectiveness of
for International Development,            corrective actions.                  USAID, ADF, and IAF programs
Ofﬁce of Inspector General                                                     and operations.
                                      • 	 Promote improvements in the way
(USAID/OIG), and results achieved         that USAID advances sustainable
during the six-month period ending        development and global interests.
on March 31, 2007. It is issued in
accordance with the requirements      • 	 Help USAID achieve management
of the Inspector General Act of           and organizational excellence.
1978, as amended, and speciﬁcally     • 	 Promote better management of
addresses OIG’s oversight responsi­       signiﬁcant and unplanned matters.
bilities for USAID, the African
                                      • 	 Preserve and protect USAID
Development Foundation (ADF),
                                          program and employee integrity.
and the Inter-American Foundation
(IAF).                                This SARC discusses signiﬁcant
                                      OIG activity and achievements in
The work reported was planned and
                                      support of these goals and provides
executed in support of OIG’s ﬁve
                                      comprehensive statistics and data
strategic goals for USAID, ADF, and
                                      regarding OIG efforts.
IAF:




                                                                 Donald A. Gambatesa
                                                                 Inspector General




                                                                            SEMIANNUAL REPORT TO THE CONGRESS          iii
EXECUTIVE SUMMARY

D          uring this reporting period,
           OIG continued its audit
           and investigative work
in support of USAID, ADF, and
IAF. OIG designed these efforts to
                                           Strategic Goal 2:
                                           Promote improvements
                                           in the way that USAID
                                           advances sustainable
                                                                                  Strategic Goal 4:
                                                                                  Promote better
                                                                                  management of significant
                                                                                  and unplanned matters.
                                           development and global
further its ﬁve strategic goals and                                               OIG conducted audits of programs
                                           interests.                             in Iraq and Afghanistan and of
realize positive results overall as well
as for each goal, as described below.      OIG conducted three audits of          tsunami-related programs in
                                           the Public Law (P.L.) 480 Non-         Indonesia, India, the Maldives, Sri
Strategic Goal 1:                          Emergency Monetization Program,        Lanka, and Thailand, and continued
                                           as well as an audit of Azerbaijan’s    oversight activities in West Bank and
Keep the U.S.Agency for
                                           economic growth program and            Gaza.
International Development,
                                           Egypt’s Agricultural Exports and
the African Development
                                           Rural Incomes Project and surveyed     Strategic Goal 5:
Foundation, the Inter-
                                           USAID’s trade capacity building        Preserve and protect
American Foundation, and                   (TCB) programs. In addition, OIG
Congress fully informed on                                                        USAID program and
                                           prepared a summary audit report of     employee integrity.
those agencies’ programs                   the President’s Emergency Plan for
and operations and the                     AIDS Relief, addressing USAID-         OIG investigated all allegations of
need for, and progress of,                 wide issues identiﬁed during four      fraud, waste, and abuse received
corrective actions.                        audits.                                from USAID personnel, audit staff,
                                                                                  contractors, grantees, the hotline
The Inspector General testiﬁed                                                    and other sources. OIG referred
                                           Strategic Goal 3:

before Congress on OIG’s oversight                                                actions to USAID for administrative
of USAID’s reconstruction and              Help USAID achieve

                                                                                  action when appropriate. OIG
development efforts in Iraq,               management and 

                                                                                  referred investigative ﬁndings to the
noting that 33 performance audits          organizational excellence.
            Department of Justice for criminal
resulted in 55 recommendations             OIG audited USAID’s ﬁnancial           and/or civil action, as warranted.
with ﬁnal action being taken on all        statements for ﬁscal years 2005
but 4 recommendations. Financial           and 2006 and continued auditing
audits identiﬁed $20 million in            USAID’s ﬁnancial audit program for
questioned costs. The Inspector            foreign recipients for compliance
General briefed staff members of           with ﬁnancial audit requirements. In
several committees on OIG work             addition, OIG worked with foreign
force matters and issues of interest,      Supreme Audit Institutions and
including the work force’s composi­        oversaw ﬁnancial audits conducted
tion; current priorities; coordination     on OIG’s behalf.
with the Government Accountabil­
ity Ofﬁce and the Special Inspector
General for Iraq Reconstruction to
ensure that work is not duplicated;
plans for allocating resources
to meet changing priorities; and
challenges faced in times of budget
constraints.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS           1
                                     SUMMARY OF AUDITS CONDUCTED

                                           AND THE RESULTS

                                         AS OF MARCH 31, 2007

                                                                NUMBER OF                    MONETARY
                     TYPE OF REPORT                              REPORTS                RECOMMENDATIONS ($)*
    FINANCIAL AUDITS

      USAID PROGRAMS AND OPERATIONS                                      1                          0


      FOUNDATIONS’ PROGRAMS AND OPERATIONS                               2                          0


      U.S.-BASED CONTRACTORS                                             54                    10,025,132


      U.S.-BASED GRANTEES                                                29                     3,331,071


          QUALITY CONTROL REVIEWS                                        8                          0


      FOREIGN-BASED ORGANIZATIONS                                       118                    14,625,335


          QUALITY CONTROL REVIEWS                                        5                          0


      ENTERPRISE FUNDS                                                   1                          0

    PERFORMANCE AUDITS

      USAID ECONOMY AND EFFICIENCY                                       24                    11,226,927


      FOUNDATIONS’ ECONOMY AND EFFICIENCY                                0                          0


    OTHER                                                                5                          0

                            TOTAL                                       247                    39,208,465

     * Monetary recommendations include questioned costs and funds put to better use.




2   SEMIANNUAL REPORT TO THE CONGRESS
                    SUMMARY OF INVESTIGATIVE ACTIVITY

                            AND THE RESULTS

                          AS OF MARCH 31, 2007


                                      USAID

                              INVESTIGATIVE ACTIONS
WORKLOAD                                CIVIL
CASES OPENED                    53      CIVIL REFERRALS                       1
CASES CLOSED                    59      COMPLAINTS                            0
                                        JUDGEMENTS/RECOVERIES                 1
                                        SETTLEMENTS                           1
CRIMINAL                                ADMINISTRATIVE
PROSECUTIVE REFERRALS            4      REPRIMANDS/DEMOTIONS                  0
PROSECUTIVE DECLINATIONS         2      PERSONNEL SUSPENSIONS                 2
INDICTMENTS                      8      RESIGNATIONS/TERMINATIONS             4
CONVICTIONS                      1      OTHER ADMINISTRATIVE ACTIONS          5
FINES                            2      RECOVERIES                            1
RESTITUTIONS                     1      SUSPENSIONS/DEBARMENTS                1
                                        SAVINGS                               1
                                        SYSTEMIC CHANGES                      6




                              INVESTIGATIVE RECOVERIES

        JUDICIAL RECOVERIES                                         $3,088,076.00
        ADMINISTRATIVE RECOVERIES                                      146,949.85
        SAVINGS                                                        224,914.00

        TOTAL INVESTIGATIVE SAVINGS / RECOVERIES                  $3,459,939.85




                                                          SEMIANNUAL REPORT TO THE CONGRESS   3
SUMMARY OF RESULTS

                                                                             Inspector General Meets
     Strategic Goal 1:                                                       With Senate Committee
     Keep the U.S.Agency for International                                   on Foreign Relations
     Development, African Development                                        The Inspector General briefed
     Foundation, Inter-American Foundation, and                              staff members of the Senate
                                                                             Committee on Foreign Relations on
     Congress fully informed on those agencies’                              OIG’s oversight activities and the
     programs and operations and the need for,                               composition of its work force. He
                                                                             told congressional staff that USAID
     and progress of, corrective actions.                                    administers foreign assistance
                                                                             programs in approximately 100
                                                                             countries. Consequently, a signiﬁ­

I   n accordance with the Inspector
    General Act of 1978, OIG
    keeps Congress and the leaders
of USAID, ADF, and IAF informed
about the status of signiﬁcant OIG
                                       educational system; and sustain­
                                       ing power, water, and sanitation
                                       projects.
                                       The Inspector General testiﬁed that
                                                                             cant portion of OIG’s work takes
                                                                             place overseas from seven regional
                                                                             ofﬁces in Baghdad, Cairo, Dakar,
                                                                             Frankfurt, Manila, Pretoria, and San
audit and investigative activities,    OIG made 55 recommendations in        Salvador. OIG’s work force consists
problems, and issues. OIG              connection with the 33 performance    of 181 employees: 56 auditors and
produces reports on completed          audits and reviews. USAID has         13 investigators based overseas and
audits and investigations and meets    taken ﬁnal action on all but four     112 staff members in Washington,
periodically with key ofﬁcials and     recommendations and has made          D.C.
congressional staff members to         management decisions to address
                                       those that remain. Also noted         The Inspector General also briefed
discuss matters of interest to them.
                                       by the Inspector General were         congressional committee staff on
                                       $20 million in questioned costs       OIG’s priorities, which include
Inspector General                      that USAID had agreed were not        oversight of reconstruction and
                                       allowable. The questioned costs       development in Afghanistan and
Testifies Before Congress
                                       were identiﬁed by ﬁnancial audits     Iraq, the President’s Emergency
The Inspector General testiﬁed         contracted for and supervised         Plan for AIDS Relief, alternative
before the House Appropriations        by OIG. The Inspector General         livelihood programs in the Middle
Subcommittee on State, Foreign         reported to the Committee that        East and Latin America, reconstruc­
Operations, and Related Programs       OIG’s investigations had resulted     tion of areas affected by the 2005
on OIG’s oversight of USAID’s          in two employee terminations, one     Asian tsunami, and development
reconstruction and development         employee resignation, a credit of     programs administered by the
efforts in Iraq. The Inspector         approximately $4.6 million, and       Millennium Challenge Corporation
General summarized OIG’s work          refunds of nearly $400,000.           (MCC). OIG is working diligently
in Iraq and discussed coordination                                           to ensure that oversight resources
efforts with other inspector general                                         are used effectively to address these
ofﬁces. Notable among the 33                                                 and other vital programs. The
performance audits that OIG                                                  Inspector General discussed the
conducted were those focusing                                                challenges facing USAID and MCC,
on increasing crop and livestock                                             as well as other issues of interest
production; improving the country’s                                          to the staff members, such as




                                                                          SEMIANNUAL REPORT TO THE CONGRESS          5
    coordination with the Government       Inspector General Briefs
    Accountability Ofﬁce and the           Senate Committee on
    Special Inspector General for Iraq
    Reconstruction to ensure that          Appropriations
    audit and investigative work is not    The Inspector General briefed
    duplicated.                            staff members of the Senate
                                           Committee on Appropriations on
                                           OIG’s oversight activities around
    Inspector General Briefs               the world, the status of its work
    House Appropriations                   force, and the challenges it faces
    Subcommittee on State,                 in times of budget constraints. As
    Foreign Operations, and                in other congressional brieﬁngs,
    Related Programs                       the Inspector General explained
                                           OIG’s current priorities. He also
    The Inspector General also briefed     provided background on OIG’s
    staff members of the House             appropriations history and how
    Appropriations Subcommittee            OIG’s activities require prioritizing
    on State, Foreign Operations,          and judicious allocation of scarce
    and Related Programs on OIG’s          resources. The Inspector General
    oversight activities. Regarding        discussed with the staffers his plans
    the funding of OIG activities,         for maintaining an ofﬁce in Iraq
    the Inspector General provided         and for increasing OIG audit and
    congressional staff with appropria­    investigative oversight activities in
    tions data on OIG’s Iraq operations    Afghanistan.
    since 2003 and discussed OIG’s
    plans for allocating resources to
    meet changing priorities, such as
    increasing oversight activity of
    programs in Afghanistan. The
    Inspector General emphasized
    that OIG’s mission is critical,
    particularly during this time of
    budget constraints and concerns
    about the use of taxpayer money.
    OIG brings value by identifying
    funds that can be put to better use,
    by recovering funds that otherwise
    would be lost to fraud, and by
    ensuring that programs operate as
    they are intended.




6   SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                       becoming acceptors of a particu­
                                                                                                       lar family planning method; or
        Strategic Goal 2:                                                                              program personnel achieving
        Promote improvements in the way that                                                           targets or quotas related to the
                                                                                                       number of births, the number
        USAID advances sustainable development                                                         of family planning acceptors,
        and global interests.                                                                          or the number of acceptors
                                                                                                       of a particular family planning
                                                                                                       method.


  A        dvancing sustainable
           development and global
           interests requires a
  proactive approach that improves
  peoples’ lives and makes positive
                                                   SIGNIFICANT
                                                   OIG WORK
                                                   Audit of USAID/Bolivia’s
                                                                                                    • 	 Rights or beneﬁts may not be
                                                                                                        withheld from persons who
                                                                                                        decide not to use family planning
                                                                                                        services.
  changes in their societies. An
                                                   Effectiveness in Complying
                                                   with Tiahrt Requirements                         • 	 The project shall provide
  effective program in each of these                                                                    comprehensible information on
  key areas is critical to the overall             Following USAID’s reporting of                       the health beneﬁts and risks of
  success of U.S. foreign assistance.              noncompliance with the Tiahrt                        the method chosen.
  Health programs focus on the                     Amendment in Guatemala, OIG
                                                                               1

  most serious health issues affecting             audited the Tiahrt Amendment in                  OIG found that USAID/Bolivia
  mankind, including HIV/AIDS,                     Guatemala for compliance. OIG                    had implemented controls and
  tuberculosis, food security, and                 then expanded work to other                      procedures for ensuring that the
  family planning. Programs in                     countries, including Bolivia, to                 mission and its partners complied
  democracy and economic growth                    assess USAID’s compliance with the               with the requirements of the Tiahrt
  establish the structure for a stable             family planning-related requirements             Amendment. However, OIG made
  and free society where individuals               of the Tiahrt Amendment.                         three recommendations.
  can work and see the positive results
                                                   Requirements of the Tiahrt                       OIG recommended that
  of their labors.
                                                   Amendment apply to projects that                 USAID/Bolivia review all current
  To support USAID’s efforts, OIG                  receive USAID support for family                 awards that include family planning
  audits those programs that improve               planning projects. The provisions                activities for inclusion of the Tiahrt
  health, education, and the environ­              of the Tiahrt Amendment that were                Amendment standard provision,
  ment; advance the growth of                      relevant to USAID/Bolivia were the               establish a plan so that future
  democracy and good governance;                   following:                                       awards include the Tiahrt require­
  strengthen economic growth,                                                                       ments, and implement controls and
  development, and stability and                   • 	 Service providers and referral               procedures to improve monitoring
  agricultural programs; and minimize                  agents shall not implement or be             of compliance with Tiahrt
  the human costs of displacement,                     subject to quotas relating to the            Amendment requirements.
  conﬂicts, and natural disasters.                     number of births, the number
                                                       of family planning acceptors,                Final action was taken on all
  These audits help USAID ensure                       or the number of acceptors                   recommendations.
  that effective systems are developed                 of a particular family planning              (Audit Report No. 1-511-07-004-P)
  and implemented for managing and                     method.
  monitoring these programs.
                                                   • 	 The project shall not include
                                                       payment of incentives to
                                                       individuals in exchange for


1. “Audit of Compliance with the Tiahrt Amendment Under USAID/Guatemala’s Cooperative Agreements,” August 21, 2006 (Audit Report
   No. 1-520-06-007-P).




                                                                                              SEMIANNUAL REPORT TO THE CONGRESS              7
    Guidance Is Needed to                               In addition, OIG found that all                     OIG conducted an audit of
    Resolve Inconsistencies in                          four missions reported some                         USAID/Brazil’s Health Program
    Measuring the Progress of the                       problems with the quality of output                 to determine whether its health
    President’s Emergency Plan                          data because of lack of adequate                    activities achieved planned results
                                                        guidance, training, or procedures on                and provided stakeholders with
    for AIDS Relief
                                                        the part of the USAID missions,                     complete and accurate information.
    The President’s Emergency Plan                      prime partners, or both. Audit
                                                        reports for all four missions                       USAID achieved important
    for AIDS Relief (Emergency Plan)
                                                        contained at least one recommenda­                  results for its TB and HIV/AIDS
    is a $15 billion 5-year program
                                                        tion for addressing the data quality                program activities. For example,
    that provides $9 billion in new
                                                        issue. Therefore, OIG did not make                  USAID/Brazil implemented Direct
    funding to accelerate the delivery of
                                                        a recommendation in this summary                    Observed Treatment, Short Course
    HIV/AIDS-related prevention, care,
                                                        report.                                             (the recommended strategy for TB
    and treatment services in 15 focus
                                                                                                            control, in the majority of the 315
    countries. The Emergency Plan
                                                        OIG recommended that the Ofﬁce                      municipalities that account for 70
    also allocates $5 billion over 5 years
                                                        of HIV/AIDS Director meet with                      percent of all tuberculosis cases in
    to bilateral programs in more than
                                                        the Department of State’s Ofﬁce                     the country). USAID/Brazil and
    100 countries and increases the U.S.
                                                        of U.S. Global AIDS Coordinator                     its partners also carried out more
    pledge to the Global Fund by
                                                        to clarify the start and cutoff dates               than 25,000 HIV/AIDS prevention
    $1 billion over 5 years.
                                                        for measuring progress and to issue                 activities, reaching more than 1
    OIG audited USAID’s progress in                     guidance to all USAID missions                      million people. However, OIG
    implementing the Emergency Plan                     with Emergency Plan activities to                   could not measure or evaluate
    to determine whether prevention                     clarify these dates.                                progress in achieving some targets,
    and care activities progressed                                                                          because documents for managing
                                                        Final action was taken on both                      the program did not include results
    as expected toward the planned
                                                        recommendations.                                    or baseline data and some program
    outputs in its grants, cooperative
    agreements, and contracts. OIG                      (Audit Report No. 9-000-07-004-P)                   funding was delayed.
    summarized results of audits
                                                                                                            In addition, USAID/Brazil did not
    conducted at USAID Missions in
                                                        USAID/Brazil Achieved                               provide stakeholders with complete
    Tanzania, Nigeria, Guyana, and
                  2
    South Africa in this report. The                    Results for Its Health                              and accurate information, maintain
                                                        Program, But Improvements                           ofﬁcial ﬁles supporting reported
    four missions had ﬁscal year 2005
                                                        Are Needed                                          data, and perform data quality
    funding levels totaling $171.8
                                                                                                            assessments. Required ﬁnancial
    million.                                            The World Health Organization                       audits also were not conducted by
    OIG was unable to determine                         identiﬁed 22 countries responsible                  USAID/Brazil, and suspected fraud
    whether USAID’s prevention                          for 80 percent of tuberculosis (TB)                 involving USAID funds was not
    and care activities progressed as                   cases worldwide. Brazil ranks 16th                  reported to OIG.
    expected because the start and                      among those countries and is one
    cutoff dates for measuring progress                 of the two countries responsible for                OIG made 12 recommendations,
    and achievement of ﬁscal year 2005                  50 percent of TB cases reported                     including that USAID/Brazil
    outputs were not interpreted and                    in Latin America. More than                         validate program results and
    applied uniformly by the missions                   50 million people in Brazil are                     disclose data limitations, conduct
    audited.                                            estimated to be infected with the                   required ﬁnancial audits, and report
                                                        bacterium that causes TB.                           suspected fraud to OIG.


    2.	 “Audit of USAID/Tanzania’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” (Audit Report No. 9-621-06-006-P); Audit of
        USAID/Nigeria’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” (Audit Report No. 7-620-06-004-P);“Audit of USAID/South
        Africa’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” (Audit Report No. 4-674-06-013-P); and “Audit of USAID/Guyana’s
        Progress in Implementing the President’s Emergency Plan for AIDS Relief,” (Audit Report No. 1-504-06-005-P).




8   SEMIANNUAL REPORT TO THE CONGRESS
Management decisions were reached                   However, OIG made recommenda­                       Oil and gas production accounts
on 10 recommendations.                              tions for improvements.                             for 90 percent of all exports and 30
                                                                                                        percent of gross domestic product
(Audit Report No. 1-512-07-007-P)                   OIG recommended that USAID/                         but only 1.5 percent of employment.
                                                    Guatemala revise its couple-years                   USAID/Azerbaijan’s Economic
                                                                  4
                                                    of protection targets, disaggregate                 Growth Program seeks to strengthen
Family Planning Activities
                                                    program targets between urban                       and diversify Azerbaijan’s economy.
Were Successful, But                                and rural areas, transfer excess
Improvements Can Be Made                                                                                As of ﬁscal year 2006, USAID/
                                                    contraceptives to locations where                   Azerbaijan’s economic growth
                                                    they can be used expeditiously, and                 portfolio consisted of eight projects
Family planning enables couples to                  make sure that only one organization
determine whether, when, and how                                                                        with funding of approximately
                                                    has responsibility for determining                  $41 million.
often to have children. Voluntary                   contraceptive requirements for the
family planning has health, economic,               nongovernmental organizations.                      OIG conducted an audit of
and social beneﬁts for families and                                                                     USAID/Azerbaijan’s Economic
communities, such as (1) reducing                   Management decisions were reached
                                                                                                        Growth Program to determine if
high-risk pregnancies; (2) protecting               on all recommendations.
                                                                                                        it progressed as expected toward
the health of children by allowing                                                                      achieving planned outputs under its
                                                    OIG recommended that
sufﬁcient time between pregnancies;                                                                     grants, cooperative agreements, and
                                                    USAID/Bolivia improve the quality
(3) reducing abortions by preventing                                                                    contracts.
                                                    of performance indicators and
unwanted pregnancies; (4) support­
                                                    targets, strengthen the reliability
ing women’s rights and opportunities                                                                    OIG found that only one of the
                                                    of its data collection systems,
for education, employment, and                                                                          eight projects–Junior Achieve­
                                                    improve its periodic data validation
full participation in society; and                                                                      ment–achieved its planned
                                                    procedures, and perform data quality
(5) protecting the environment by                                                                       outputs. The seven projects that
                                                    assessments.
stabilizing population growth.                                                                          were not progressing as expected
                                                    Management decisions were reached                   included energy assistance, banking
During this period, OIG continued                                                                       supervision, and rural enterprise
                                                    on three recommendations, and ﬁnal
to audit USAID’s family planning                                                                        competitiveness. Of these projects,
           3                                        action was taken on the fourth.
programs in Guatemala and Bolivia.                                                                      one was terminated early, four did
These countries have the two highest                [Audit Report Nos. 1-520-07-001-P                   not deliver key outputs, and two were
total fertility rates in Latin America.             (Guatemala) and 1-511-07-005-P
                                                                                                        duplicative and restructured. The
OIG conducted these audits to                       (Bolivia)]
                                                                                                        poor performance of these projects
determine if (1) family planning                                                                        during ﬁscal year 2006 stemmed
activities achieved planned results                 USAID’s Economic Growth                             from a variety of implementation
stated in strategic plans, Congres­                 Program Had Mixed Results                           problems, some of which were
sional Budget Justiﬁcations, and                                                                        beyond the Mission’s control.
agreements and contract documents                   During this period, OIG audited
and (2) USAID/Guatemala and its                     USAID’s Economic Growth                             OIG made three recommendations,
partners managed its family planning                Programs in Azerbaijan and El                       including updating local guidance and
activities efﬁciently.                              Salvador.                                           complying with USAID guidance.
Both missions achieved their planned                Azerbaijan has one of the fastest                   Management decisions were reached
results, and USAID/Guatemala                        growing economies in the world with                 on all recommendations.
and its partners managed its family                 its economy growing at an annual
planning activities efﬁciently.                     rate of 20 percent in ﬁscal year 2005.


3.	 During the previous period, OIG’s audit was reported in “Audit of USAID/Egypt’s Family Planning Activities,” September 28, 2006 (Audit Report
    No. 6-263-06-01-P).
4.	 Couple-years of protection (CYP) is a common indicator used to measure the effect of family planning activities. CYP is the number of couples
    protected from unplanned pregnancies during a one-year period based on the number and type of contraceptives distributed during the period.




                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS                9
     El Salvador’s real per capita gross              provide stakeholders with complete                USAID’s P.L. 480 Non-
     domestic product increased just 1.7              and accurate information.                         Emergency Monetization
     percent during the ﬁve-year period                                                                 Program Had Mixed Results
     beginning in 2000. As of ﬁscal                   OIG made 12 recommendations,
     year 2006, USAID/El Salvador’s                   including revising performance
                                                                                                        The objective of the P.L. 480
     economic growth portfolio consisted              targets; working with the
                                                                                                        Non-Emergency Monetization
     of 11 activities with obligations of             Government of El Salvador on
                                                                                                        Program (Title II) is to provide food
     approximately $28 million.                       improving its tax structure; and
                                                                                                        aid to vulnerable groups in non-
                                                      requiring cognizant technical ofﬁcers
                                                                                                        emergency situations and to promote
     OIG conducted an audit in                        to sample and review implementing
                                                                                                        development programs critical to
     El Salvador to determine if its                  partners’ data for completeness,
                                                                                                        long-term food security. When
     economic growth activities achieved              accuracy, and consistency.
                                                                                                        authorized by USAID, cooperating
     planned results and provided
                                                      Management decisions were reached                 sponsors may either distribute the
     stakeholders with complete and
                                                      on nine recommendations, and ﬁnal                 commodities directly to recipients
     accurate information.
                                                      action was taken on one.                          or sell the commodities to generate
     OIG found that USAID/El Salvador                                                                   foreign currency for supporting local
     met 14 of 16 targets. Examples of                [Audit Report Nos. 8-112-07-001-P                 development programs. The sale
                                                      (Azerbaijan) and 1-519-07-006-P                   of U.S. agricultural commodities by
     the successful results that exceeded
                                                      (El Salvador)]
     target indicators included the number                                                              cooperating sponsors (turning food
     of people trained by business                                                                      assistance into program funds) is
     development and ﬁnancial services                                                                  called “monetization.”
     programs and the number of active
     new borrowers of assisted microﬁ­                                                                  During this period, OIG continued
     nance institutions. OIG also found                                                                 to audit the P.L. 480 Title II
                                                                                                                  5
     that USAID/El Salvador did not                                                                     program, conducting audits in




           Photograph of women in the village of Nagbingou,                       Photograph of a farmers’ association member operating
           Burkina Faso, who obtained credit from the microﬁnance                 a water pump to irrigate vegetable plots in Muziva,
           program. The credit enabled the women to start their own               Mozambique. This technique was introduced through
           businesses, send their children to school, and take care of            USAID/Mozambique.
           their families.



     5. “Audit of USAID/Haiti’s Management of P.L. 480 Non-Emergency Monetization Program,” September 28, 2006 (Audit Report No. 9-521-06-010-P).




10   SEMIANNUAL REPORT TO THE CONGRESS
Burkina Faso, Guatemala, and           In Mozambique, OIG could not               and planned TCB accomplish­
Mozambique to determine if the         determine if planned outputs were          ments; and the status of USAID’s
program activities achieved planned    achieved, because the outputs              small-business trade matchmaking
outputs. Even though OIG found         reported could not be veriﬁed.             efforts. OIG conducted this survey
that the program in Burkina Faso       OIG recommended that USAID/                at USAID/Washington and at the
achieved only 17 of 22 selected        Mozambique perform a data quality          Missions in El Salvador, Honduras,
categories of planned outputs, these   assessment for its P.L. 480 Non-           Nicaragua, the Philippines, and South
outputs were achieved at 90 percent    Emergency Monetization Program             Africa. USAID reported about
or higher. Outputs included training   and emphasize to its staff the             $695 million in TCB activities in
farmers in agricultural production,    importance of documenting site             2005.
water and soil conservation            visits.
techniques, and construction of                                                   OIG found that USAID provided
livestock enclosures and promoting     Management decisions were reached          guidance to the ﬁeld and host
microﬁnance activities. Three          on both of the recommendations.            countries on the reforms to be
recommendations were made for                                                     addressed in its TCB programs and
                                       [Audit Reports Nos. 7-624-07-001-P         that many of the TCB programs
improving monitoring and reporting     (Burkina Faso), 1-520-07-002-P
activities.                                                                       tested supported implementation
                                       (Guatemala), and 4-656-07-003-P
                                       (Mozambique)]
                                                                                  of FTAs with developing countries.
Management decisions were reached                                                 However, OIG found that the
on all recommendations.                                                           Trade Promotion Coordinating
                                       USAID’s Trade Capacity                     Committee’s 2006 National
OIG could not determine if planned     Building Programs for                      Export Strategy did not reﬂect
outputs were achieved by Guatemala     Supporting Implementation of               USAID’s current and planned TCB
or Mozambique. In Guatemala,           Free Trade Agreements Can be               accomplishments. In addition, OIG
no development programs were           Strengthened                               determined that several missions that
funded by commodity sales, so no                                                  were surveyed support matchmaking
outputs were deﬁned for USAID/         To encourage developing countries          activities although USAID does not
Guatemala’s monetization activities.   to participate more fully in the           currently fund a global small-business
Instead, monetization proceeds         international market, the United           trade matchmaking program.
were used to defray expenses           States negotiates free trade
associated with distributing food      agreements (FTAs) with developing          OIG made four recommendations,
assistance under the Title II food     countries. FTAs are enforceable            including that USAID improve
program and contributed indirectly     contracts between two or more              its database Web site in two areas,
to achieving the outputs that were     nations that reduce or remove trade        develop and distribute mission-level
deﬁned for the food distribution       barriers and give preferential market      TCB performance indicators, and
program. However, OIG identiﬁed        access in return.                          appoint a USAID representative to
opportunities for improving program                                               the Trade Promotion Coordinating
                                       OIG conducted a survey of                  Committee.
operations.
                                       USAID’s TCB programs in response
OIG made six recommendations,          to a congressional request. OIG was        Final action was taken on all four
including that USAID/Guatemala         asked to determine whether USAID           recommendations.
move the program to a market-basket    provided guidance to the ﬁeld and
                                                                                  (Audit Report No. 9-000-07-002-S)
approach, sell to more than one        host countries on the reforms to
buyer, and recover about $300,000      be addressed in its TCB programs;
in costs that should not have been     whether USAID’s TCB programs
charged to the program.                supported implementation of FTAs
                                       with developing countries; whether
Management decisions have been         the Trade Promotion Coordinating
reached on two of six recommenda­      Committee’s 2006 National Export
tions.                                 Strategy reﬂected USAID’s current




                                                                               SEMIANNUAL REPORT TO THE CONGRESS           11
     USAID/Egypt’s Agricultural
     Exports and Rural Incomes
     Project Can Be Improved
     USAID/Egypt’s Agriculture Export
     and Rural Incomes Project was a 4­
     year $57.3 million project designed to
     strengthen the environment for trade
     and investment. OIG conducted an
     audit to determine if the project had
     increased jobs and rural household
     incomes of project recipients. For
     the activities audited, the project
     had not increased jobs of planned
     participants, and the grantees were
     unable to support the income results
     they reported. In addition, several
     weaknesses existed in the mission
     controls for oversight and reporting.
     OIG recommended that USAID/
     Egypt establish better targets
     for measuring progress, improve
     oversight of grantee reporting,
     verify reported results, and correct
     its Performance Monitoring Plan.
     Management decisions were reached
     on all recommendations.
     (Audit Report No. 6-263-07-001-P)




12   SEMIANNUAL REPORT TO THE CONGRESS
                                                                                  OIG reported instances of
                                                                                  noncompliance with laws and
                                                                                  regulations related to USAID’s
     Strategic Goal 3:                                                            account closing and deobliga­
     Help USAID achieve management and                                            tion process and reported two
     organizational excellence.                                                   Anti-deﬁciency Act violations.
                                                                                  OIG recommended that USAID
                                                                                  research and resolve problems in
                                                                                  system processes and ensure that
                                                                                  obligations are not incurred before


O         IG conducts audits of
          USAID’s ﬁnancial systems,
          oversees ﬁnancial audits
of USAID contractors and grantees,
and promotes improvements in
                                       SIGNIFICANT
                                       OIG WORK
                                       OIG Issued an Unqualified
                                                                                  the commitment of funds and valid
                                                                                  obligations.

                                                                                  Management decisions were
                                       Opinion on USAID’s                         reached on all recommendations
information technology infrastruc­                                                and valid obligations are recorded.
ture and security awareness.           Financial Statements, But
                                       Improvements Are Needed                    In 2006, USAID fully deployed its
In 2003, OIG issued its ﬁrst                                                      new ﬁnancial accounting system
unqualiﬁed opinion on USAID’s          OIG issued an unqualiﬁed opinion
                                                                                  worldwide. OIG determined that
ﬁnancial statements and has issued     on USAID’s ﬁscal years 2006 and
                                                                                  USAID substantially complied with
an unqualiﬁed opinion each year        2005 ﬁnancial statements. The
                                                                                  the Federal Financial Management
since. This was achieved because       opinion included one material
                                                                                  Improvement Act of 1996.
of OIG’s efforts and USAID’s           weakness, ﬁve reportable conditions,
corrective actions in response         and three instances of noncompli­          (Audit Report No. 0-000-07-001-C)
to previously reported ﬁnancial        ance with laws and regulations.
management challenges. USAID’s
programs are implemented through       The material weakness related              USAID/Uganda’s Compliance
contractors and grantees, and          to USAID’s accounting and                  with Financial Audit
USAID is required by Federal           reporting of accruals and required         Requirements Regarding
government regulations to obtain       a $123 million adjustment. OIG             Foreign Recipients Should Be
timely audits of its contractors and   recommended that USAID prepare             Improved
grantees. OIG provides oversight       and complete quarterly reconcili­
of these audit activities to help      ations of its accruals system with         USAID administers most of its
ensure that audits are conducted       its general ledger and update its          foreign assistance programs by
in accordance with appropriate         accruals training course.                  awarding contracts, grants, and
standards and thereby enhance                                                     cooperative agreements to U.S.­
                                       Reportable conditions included             based and foreign organizations.
accountability.                        weaknesses in the reconciliation           To help ensure accountability
In addition, OIG audited USAID’s       processes and inadequate controls          over funds, USAID and OIG
information technology infrastruc­     for ensuring the accuracy of               jointly have developed a ﬁnancial
ture and security issues. OIG is       ﬁnancial and performance data.             audit program. Foreign nonproﬁt
continuing to monitor USAID’s          OIG recommended that USAID                 organizations expending more than
progress in this area                  perform scheduled reconciliations,         $300,000 of USAID funds during
                                       develop and implement procedures           their ﬁscal years are required to
                                       for identifying invalid accounts at        have an annual ﬁnancial audit.
                                       the appropriation level, and certify
                                       the accuracy of performance data.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS         13
     During this period, OIG continued                  audits of U.S.-based nonproﬁt and
     to audit USAID’s ﬁnancial audit                    foreign organizations that receive
                                    5
     program for foreign recipients                     USAID funds and conducts quality-
     by auditing USAID/Uganda’s                         control reviews to determine if the
     Compliance with Financial Audit                    audits comply with U.S. Government
     Requirements Regarding Foreign                     requirements. During this period,
     Recipients. The objective of the                   OIG reviewed 202 audit reports
     audit was to determine if USAID/                   that identiﬁed about $28 million in
     Uganda effectively managed its                     questioned costs, covering about
     ﬁnancial audit program in accordance               $2.3 billion audited. OIG also issued
     with USAID policies and procedures                 13 quality control review reports
     for ﬁscal years 2004 and 2005.                     covering $321 million.

     OIG found that USAID/Uganda did                    Signiﬁcant examples of OIG
     not effectively manage its ﬁnancial                oversight occurred at USAID/Iraq
     audit program. Speciﬁcally, USAID/                 and USAID/Pakistan. At
     Uganda did not ensure that planned                 USAID/Iraq, OIG transmitted three
     audits of foreign recipients were                  DCAA audit reports that identiﬁed
     performed in a timely manner or that               about $3.4 million in questioned
     delinquent audits were followed up                 costs covering about $509.6 million
     and completed.                                     audited.

     OIG recommended that USAID/                        OIG recommended that USAID/
     Uganda develop and implement                       Iraq determine the allowability and
     an audit-tracking system for better                collect, as appropriate, $3.4 million in
     monitoring timely submittal of                     questioned ineligible costs.
     planned audits.
                                                        At USAID/Pakistan, OIG reviewed
     A management decision was reached                  an audit report prepared by
     on this recommendation.                            nonfederal auditors that identiﬁed
                                                        about $2 million in questioned
     (Audit Report No. 4-617-07-001-P)
                                                        costs covering about $3.2 million
                                                        audited, one material internal
     OIG Identified $28 Million in                      control weakness, and seven material
     Questioned Costs                                   instances of noncompliance.

     OIG maintains oversight of audit                   OIG recommended that USAID/
     work conducted by federal and                      Pakistan determine the allowability
     nonfederal auditors. OIG reviews                   of and recover, as appropriate,
     Defense Contract Audit Agency                      $2 million in questioned costs, and
     (DCAA) reports and transmits                       correct the internal control weakness
     them to USAID management. In                       and instances of noncompliance.
     addition, OIG performs oversight
     of nonfederal auditors who perform                 Management decisions are pending.


     5.	 During the previous reporting period, OIG conducted six audits: “Audit of USAID/REDSO/ESA’s Compliance with Financial Audit Requirements
         Regarding Foreign Recipients,” May 22, 2006 (Audit Report No. 4-623-06-008-P);“Audit of USAID/Ethiopia’s Compliance with Financial Audit
         Requirements Regarding Foreign Recipients,” May 31, 2006 (Audit Report No. 4-663-06-009-P);“Audit of USAID/Tanzania’s Compliance with Financial
         Audit Requirements Regarding Foreign Recipients,” July 31, 2006 (Audit Report No. 4-621-06-010-P); “Audit of USAID/Kenya’s Compliance with
         Financial Audit Requirements Regarding Foreign Recipients,” July 31, 2006 (Audit Report No.4-615-06-011-P);“Audit of USAID/Malawi’s Compliance
         with Financial Audit Requirements Regarding Foreign Recipients,” July 31, 2006 (Audit Report No. 4-612-06-012); and “Audit of USAID/Mozambique’s
         Compliance with Financial Audit Requirements Regarding Foreign Recipients,” September 22, 2006 (Audit Report No. 4-656-06-015-P).




14   SEMIANNUAL REPORT TO THE CONGRESS
                                                                                      OIG found that of the 29 activities
                                                                                      reviewed, 16 achieved their intended
                                                                                      outputs, 12 were on schedule to do
      Strategic Goal 4:                                                               so, and 1 was not likely to achieve
      Promote better management of signiﬁcant                                         its intended outputs. OIG also
      and unplanned matters.                                                          found that USAID/Iraq did not
                                                                                      properly administer its contract for
                                                                                      proper review of payment vouchers,
                                                                                      documentation of key events, and
                                                                                      annual evaluations of contractor


O         IG partners with USAID
          to help ensure audit
          oversight of activities that
are of signiﬁcant interest to USAID
and Congress.
                                           in the key poppy-producing
                                           provinces, referred to as “alternative
                                           livelihoods.”
                                           In addition, OIG performs
                                                                                      performance reporting.
                                                                                      OIG recommended that USAID/
                                                                                      Iraq verify that cognizant technical
                                                                                      ofﬁcers are documenting signiﬁcant
                                           oversight of USAID activities in the       events and key decisions affecting
USAID programs in Iraq, Afghani­           West Bank and Gaza and conducts            the activities.
stan, the West Bank and Gaza,              audits of tsunami programs.
rebuilding the tsunami countries,                                                     A management decision was
and developing a tsunami warning                                                      reached on this recommendation.
system are high-priority programs.         SIGNIFICANT
                                                                                      (Audit Report No. E-267-07-002-P)
OIG has maintained an ofﬁce in             OIG WORK
Iraq since 2003 that is staffed with
seven auditors and two investigators       USAID/Iraq’s Agriculture                   USAID/Iraq Can Improve
who conduct audits and investiga­          Reconstruction and                         Management of Its Civil
tions of reconstruction and relief         Development Program Is on                  Society Activities
activities. OIG primarily conducts         Schedule to Achieve Most of
audits in Afghanistan and in the           Its Intended Outputs                       In support of U.S. Government
tsunami region from its Manila,                                                       efforts to foster participatory
Philippines, ofﬁce. Work in the            The Iraq agricultural sector is            democratic governance in Iraq,
West Bank and Gaza is conducted            marked by low productivity and             USAID/Iraq sought to strengthen
from the OIG ofﬁce in Cairo,               lack of employment and income              civil society’s role in the economic
Egypt.                                     opportunities for the rural                and political development of
                                           population. In October 2003,               a broad group of civil society
OIG audits in Iraq focus on a              USAID initiated a comprehensive            organizations (CSOs) in Iraq. To
variety of programs, including the         national plan for revitalizing the         accomplish this goal, USAID/Iraq
power sector; building the capacity        agricultural sector and awarded            awarded a $43 million contract.
and increasing the quality of the          a contract for implementing                Through modiﬁcations, the funding
country’s educational system;              USAID/Iraq’s agriculture program.          increased to $59.1 million. The
building an agricultural sector; and       As of June 2006, the contract had          program funded through the
strengthening civil societies through      total obligations of approximately         contact focused on fostering
initiatives such as (1) civic education,   $101 million and disbursements of          the growth and development of
(2) women’s advocacy, (3) anticor­         approximately $80 million.                 CSOs in civic education, women’s
ruption, and (4) human rights.                                                        advocacy, anticorruption, and
                                           OIG conducted an audit of                  human rights.
In Afghanistan, OIG audits projects        USAID/Iraq’s Agriculture and
such as road, school, and clinic           Reconstruction Program to
reconstruction and projects that           determine if its agricultural activities
provide local communities with             were achieving intended outputs.
labor-intensive work programs




                                                                                  SEMIANNUAL REPORT TO THE CONGRESS          15
     OIG conducted an audit of                       and that procedures are developed         conducted an audit of USAID/
     USAID/Iraq’s civil society activities           to ensure that speciﬁc and accurate       Afghanistan’s ALP/E to determine
     to determine if those activities were           outputs are reported and sufﬁciently      if it achieved planned results for
     achieving their intended outputs.               documented.                               ﬁscal year 2006.
     Of the 35 intended outputs
     included in the implementing                    Final action was taken on both            In ﬁscal year 2006, ALP/E achieved
     partner’s Performance Monitoring                recommendations.                          signiﬁcant results for 13 of 15
     Plan (PMP), OIG found that 17                                                             performance indicators. However,
                                                     (Audit Report No. E-267-07-001-P)
     were achieved and 8 were reported                                                         OIG did not measure the actual
     as not met. In addition, 10 could                                                         results achieved against the planned
                                                     USAID/Afghanistan’s                       results because performance targets
     not be determined because of a lack
     of sufﬁcient documentation and                  Alternative Livelihoods                   were set too late in the year to be
     nonspeciﬁc reported outputs.                    Programs-Eastern Region                   useful. Two performance indicators
                                                     Achieved Results, But                     could not be evaluated because
     OIG found that the contractor’s                 Improvements Can Be Made                  sufﬁcient information was not
     PMP was neither complete nor                                                              available or the activities were not
     achievable. It did not list intended            As part of the U.S. Government’s          fully implemented.
     outputs for all indicators, and                 ﬁve-pillar counternarcotics strategy,
                                                     USAID/Afghanistan launched its            OIG made four recommendations
     security issues caused delays in
                                                     Alternative Livelihoods Program           related to updating performance
     implementing the program. In
                                                     (ALP) to provide economic alterna­        indicators and documenting site
     addition, some reported outputs
                                                     tives to the production of opium          visits.
     were not speciﬁc, accurate, and
     documented.                                     poppy in Afghanistan. In February         Final action was taken on all
                                                     2005, USAID/Afghanistan awarded           recommendations.
     OIG recommended that USAID/                     a four-year $108 million contract
     Iraq review the contractor’s PMP                for implementing ALP/East                 (Audit Report No. 5-306-07-002-P)
     to require that each indicator has              (ALP/E) in the provinces of Kunar,
     measurable and achievable outputs               Laghman, and Nangarhar. OIG




       Photograph of an Afghan woman working on a cash-for-work            Photograph of Afghan men working on a cash-for-work project
       project to rehabilitate a fruit and vegetable wholesale market in   to build a ﬂood-protection wall for the village of Binigah,
       Jalalabad, Afghanistan.                                             Afghanistan.




16   SEMIANNUAL REPORT TO THE CONGRESS
USAID/Sri Lanka is Making                    OIG found that activities either             USAID/RDMA’s U.S. Indian
Progress on Its Large-Scale                  achieved or were achieving 43 of             Ocean Tsunami Warning
Infrastructure Rebuilding                    54 planned preconstruction outputs           Program Intended Results
Activities Under Its Tsunami                 and that the reported costs of the           Not Achieved During the First
                                             activities were within cost estimates.
Reconstruction Program, But                                                               Implementation Year
Improvements Can Be Made                     OIG recommended that USAID/Sri
                                                                                          In response to the disaster in
                                             Lanka modify its contract to delete
Following the tsunami in December                                                         December 2004, the international
                                             a wastewater treatment facility and
2004, President George W. Bush                                                            community joined together to
                                             add the funds to work related to
signed the Emergency Supplemental                                                         develop a tsunami warning and
                                             groundwater investigations, and
Appropriations Act for Defense, the                                                       mitigation system for the Indian
                                             develop written procedures for
Global War on Terror, and Tsunami                                                         Ocean. As a U.S. Government direct
                                             executing timely modiﬁcations for
Relief, 2005. Of the $656 million                                                         contribution to the international
                                             changes in the contract’s scope of
appropriated to USAID, $134 million                                                       effort, USAID/Regional Develop­
                                             work.
was provided to USAID/Sri Lanka.                                                          ment Mission for Asia (RDMA)
                                             Management decision was reached              launched a two-year $16.6 million
OIG audited USAID’s rebuilding                                                            U.S. Indian Ocean Tsunami Warning
                                             on the ﬁrst recommendation, and
activities in Sri Lanka under the                                                         System (IOTWS) Program.
                                             ﬁnal action was taken on the second.
Tsunami Reconstruction Program
to determine whether the activities          (Audit Report 5-383-07-001-P)                Under the program, scientists and
were achieving planned outputs and                                                        experts from the United States share
whether the outputs were being                                                            technical expertise to help build
achieved within the cost estimates.                                                       an early-warning system within
The $33.3 million project for                                                             the Indian Ocean region so that
rebuilding infrastructure damaged by                                                      governments and communities will
the tsunami had not begun construc­                                                       be able to detect and prepare for
tion, so OIG’s audit focused on                                                           tsunamis and other coastal hazards.
preconstruction outputs and costs.                                                        The program activities were located




  Photograph showing half of the original Arugam Bay Bridge in      Photograph of drilling operations to determine the feasibility of
  Sri Lanka that survived the tsunami connected to a temporary      using groundwater instead of surface water as the water source
  bridge. The new bridge will be built adjacent to this bridge.     for the communities of Pottuvil and Panama, Sri Lanka.




                                                                                      SEMIANNUAL REPORT TO THE CONGRESS                 17
     primarily in the countries most         USAID contracted with indepen­
     affected by the tsunami: Indonesia,     dent public accounting ﬁrms for
     India, the Maldives, Sri Lanka, and     conducting concurrent audits of
     Thailand.                               cash transfers to the Palestinian
                                             Authority, as well as ﬁnancial audits
     OIG conducted an audit of USAID/        and agreed-upon procedures of
     RDMA’s U.S. IOTWS Program to            contractors, grantees, subcontractors,
     determine whether critical activities   and subgrantees. These audits help
     achieved intended results following     ensure the validity of costs claimed
     the ﬁrst year of program implemen­      and compliance with Executive
     tation.                                 Order 13224 regarding blocking
     OIG found that critical activities      assistance to terrorist organiza­
     had not achieved intended ﬁrst-year     tions. During this period, OIG
     results. Speciﬁcally, of the 11         issued 34 ﬁnal reports, identiﬁed
     performance indicators, 1 achieved      16 reportable conditions in internal
     its performance target, 5 did not       controls and 78 material instances of
     achieve their performance targets,      noncompliance, and questioned costs
     and 5 could not be evaluated because    of approximately $1 million of the
     of lack of or inadequate documenta­     $63.4 million audited.
     tion.                                   OIG oversight activities during this
     OIG recommended that USAID/             period did not identify any instances
     RDMA develop and implement a            where terrorist organizations
     plan that includes a timeline and       received USAID funds.
     steps needed to achieve planned
     performance targets on schedule,
     and a plan that will require that the
     cognizant technical ofﬁcer provide
     technical direction and keep support­
     ing documentation updated and
     readily available.

     Final action was taken on both
     recommendations.
     (Audit Report No. 5-486-07-003-P)


     OIG’s Oversight Activities
     Continue in the West Bank
     and Gaza
     OIG’s oversight activities in the
     West Bank and Gaza included
     audits of USAID’s cash-transfer
     program to the Palestinian Authority
     and continuing audits of USAID’s
     contractors and grantees.




18   SEMIANNUAL REPORT TO THE CONGRESS
                                                                                    Management decisions were reached
                                                                                    on all recommendations.
     Strategic Goal 5:                                                              (Audit Report No. 9-000-07-003-P)
     Preserve and protect USAID program and
                                                                                    OIG Conducts Financial
     employee integrity.                                                            Management Training
                                                                                    USAID’s contracts and grants deﬁne
                                                                                    the types of costs that are legitimate


O          IG conducts investigations
           and audits to prevent and
           detect fraud, waste, and
abuse in programs and operations
and to preserve and protect program
                                         Programs administers the program
                                         governmentwide.
                                         OIG audited the management
                                         of USAID’s FECA Program to
                                                                                    charges for supporting USAID
                                                                                    programs. To increase awareness
                                                                                    and compliance with cost principles,
                                                                                    OIG conducts ﬁnancial management
                                         determine whether USAID has                training for overseas USAID staff,
and employee integrity. To this end,                                                contractors, grantees, and others.
OIG conducts worldwide investiga­        managed the program effectively.
                                                                                    The training provides a general
tions into allegations of criminal,      OIG found that USAID has neither           overview of both U.S. Government
civil, and administrative violations     maintained sufﬁcient records nor           cost principles and audit require­
relating to USAID programs and           systematically reviewed quarterly          ments. It also provides examples of
operations; conducts ﬁnancial and        Department of Labor preliminary            concepts such as reasonableness of
performance audits; maintains a          billing reports to ensure that costs       costs and allowable and unallowable
hotline to make it easy to report        are appropriate. As a result, USAID        costs.
allegations of fraud, waste, abuse,      did not undertake steps to identify
mismanagement, and misconduct            and eliminate potential fraud,             During this period, OIG provided
in programs or operations; and           waste, and abuse by periodically           ﬁnancial management training in 8
provides fraud-awareness and             reviewing a sample of cases for            countries to about 400 individuals.
ﬁnancial management training to          continued beneﬁciary eligibility and
USAID staff, partners, local audit       by verifying monetary obligations on       Investigations: Prevention
ﬁrms, and foreign Supreme Audit          Department of Labor billings. In           and Fraud Awareness
Institutions.                            addition, USAID did not adequately
                                         verify and account for “continu­           OIG employs proactive strategies
                                         ation of pay” beneﬁts to ensure            to prevent fraud. For example,
SIGNIFICANT                              that those costs were authorized.          fraud awareness training given to
OIG WORK                                 Consequently, USAID made                   employees, contractors, grantees,
                                         unauthorized continuation-of-pay           and others alerts them to fraudulent
USAID Can Improve the                    beneﬁts to one employee. USAID             practices and schemes and advises
Management of Its Federal                also did not adequately track the          them on how to report fraud. When
Employees’ Compensation                  occurrence of workplace injuries           requested, the training is tailored to
Act Program                              and illnesses, follow procedures for       speciﬁc groups, such as contracting
                                         sharing information, and revise and        ofﬁcers or cognizant technical
Congress enacted the Federal             update internal guidance in a timely       ofﬁcers.
Employees’ Compensation Act              manner.
(FECA) in 1916 as a comprehensive                                                   Furthermore, investigations resulting
workers’ compensation program            OIG made six recommendations,              in criminal and/or civil prosecution
for federal civilian employees who       including verifying beneﬁciary             are publicized on USAID’s Web site
suffer death or disability as a result   eligibility and billings for accuracy      and in other publications, calling
of either a work-related injury or a     and tracking and monitoring                attention to prosecutorial action
disease. The Department of Labor’s       continuation-of-pay beneﬁts.               taken against individuals or organiza­
Ofﬁce of Workers’ Compensation                                                      tions whose illegal activities have



                                                                                 SEMIANNUAL REPORT TO THE CONGRESS           19
     targeted USAID programs. OIG              During the reporting period, OIG        contacts were solicitations for
     hotline posters, ﬂyers, and cards         received 7,810 hotline contacts. Of     money, advertisements, or requests
     have been distributed worldwide. In       these contacts, 17 were referred for    for general information that were
     an effort to expand OIG’s outreach        possible case openings, 237 were        non-OIG-related matters.
     efforts, the materials are produced       referred to USAID, 23 were referred
     in English, Spanish, French, and          to other federal agencies, 13 were
     Arabic.                                   referred to other law enforcement
                                               agencies, and 27 were found to be
                                               unsubstantiated. The remaining

                      FRAUD AWARENESS BRIEFINGS CONDUCTED WORLDWIDE
                                    AS OF MARCH 31, 2007

       Month             Location               Sessions     Attendees                Professional Afﬁliation

       OCT         San Salvador, El Salvador        1              40          South American Intelligence and Law
                                                                                 Enforcement Personnel

       NOV        Kabul, Afghanistan                2             46           USAID Personnel
                  Cairo, Egypt                      1             34           USAID/RIG Personnel
                  Mexico City, Mexico               1             29           USAID Personnel
                  Jerusalem, Israel                 1             20           Israeli Accounting Firms
                  E. Jerusalem, Israel              1             102          USAID Personnel
                  Soﬁa, Bulgaria                    1             27           USAID Personnel


       DEC        Washington, D. C.                 1              15          USAID New Entry Professionals
                  Amman, Jordan                     3             141          USAID Personnel


       JAN                                                    Nothing to Report



       FEB        Baghdad, Iraq                     2              40          USAID and Contractor Personnel
                  Frankfurt, Germany                2              32          Regional Procurement Support Ofﬁce,
                                                                                 U.S. Consulate
                  Cairo, Egypt                      1              13          USAID Personnel
                  Washington, D.C.                  1              29          USAID New Entry Professionals
                  Brussels, Belgium                 1              21          European Union Anti-Fraud Ofﬁce Personnel


       MAR        Cairo, Egypt                      1              47          Pathﬁnder International Employees
                  Frankfurt, Germany                1               8          General Services Operations, U.S. Consulate
                  Washington, D.C.                  1               6          USAID/ANE Bureau Employees
                  Washington, D.C.                  1              21          USAID New Entry Professionals
                  Tel Aviv, Israel                  1              79          USAID Personnel
                  Antipolo, Philippines             2              52          USAID Personnel
                  Pasig City, Philippines           1              30          USAID Personnel
                  Mindanao, Philippines             2              81          USAID Personnel
                  Baghdad, Iraq                     1              16          Baghdad State Department Chancery

                           TOTAL                    30            929





20    SEMIANNUAL REPORT TO THE CONGRESS
PROGRAM                                  a new CFO; and establishing a new        for establishing alternative learning
                                         position of director who will share      centers for teaching classes to more
INTEGRITY
                                         responsibilities with the current        than 7,000 children.
Investigation Leads to                   president.
Imprisonment and Debarment                                                        Investigation Leads to
                                         Investigation Leads to Former            $2.9 million in Criminal and
An OIG investigation revealed that a     Chief Operating Officer’s                Civil Penalties
USAID subcontractor for a Virginia-      Indictment and Guilty Plea for
based private voluntary organization                                              After a lengthy OIG investigation, a
                                         Wire Fraud
submitted fraudulent travel receipts                                              USAID-funded contractor company
and vouchers to USAID and the            A USAID-funded nonproﬁt                  admitted to criminal wrongdoing
U.S. Department of Agriculture for       foundation supporting improve­           in connection with overbilling the
reimbursement.                           ments in coffee production and the       government on various USAID
                                         industry’s global work force was         contracts around the world and
The subject pled guilty and was          the victim of a theft of $170,000.       agreed to a payment of $2.9 million
sentenced in U.S. District Court.        An OIG investigation determined          in criminal ﬁnes, restitution, and civil
The subject is debarred from all U.S.    that the former Chief Operating          recovery. The company admitted
Government procurement contracts         Ofﬁcer (COO) for the foundation          that from May 1999 through April
for one year. The debarment is           made several unauthorized funding        2002, it submitted more than
subsequent to the District Court         transfers. More than $400,000 was        110 false invoices to USAID on
sentence of ﬁve days or two              embezzled from the foundation’s          cost-plus-ﬁxed-fee contracts based
weekends in jail, two years supervised   parent company, which then               in Egypt, South Africa, Zambia,
release, a $1,000 ﬁne, a $100 special    employed the subject as COO.             Dominican Republic, Guatemala,
assessment fee, and full restitution.                                             Honduras, and Rwanda, overbilling
                                         As a result of the OIG investigation,
                                                                                  USAID for foreign labor costs.
                                         the COO was indicted and pled
Organization’s Chief
                                         guilty in U.S. District Court to one     In addition to the monetary
Financial Officer Resigns as             count of “Honest Services Wire           settlement, the company agreed to
a Result of Investigation for            Fraud.” Sentencing is scheduled for      abide by a Compliance and Ethics
Misappropriation of USAID                later this year.                         section in a deferred prosecution
Funds                                                                             agreement whereby it agreed to hire
An organization’s Chief Financial        Investigation Results in                 a third-party auditor to prepare a
Ofﬁcer (CFO), performing services        Termination of Subgrant                  written report and certify that it is
pursuant to a USAID cooperative                                                   billing USAID in accordance with
agreement, resigned as a result of an    One USAID-ﬁnanced subgrant was           its contractual agreements with the
OIG investigation. The investigation     terminated, resulting in savings of      government, improve its supervision
included coordination with OIG           $224,914 and recovery of funds           of foreign-site accounting and
auditors and a USAID mission             totaling $21,589 after the investiga­    ﬁnance personnel, and implement
and uncovered several operational        tion revealed that the director of a     an on-the-spot employee cash-award
irregularities, including the use of     USAID-funded nonproﬁt organiza­          system for encouraging employees
“shell companies.”                       tion was improperly disbursing funds     to uncover and report signiﬁcant
                                         to family members; double billing        government billing errors. The U.S.
As a result of the investigation,        for salaries, supplies, and construc­    Attorney’s Ofﬁce for the District
the organization is revamping its        tion materials; and using funds to       of Massachusetts agrees to dismiss
business practices and account­          purchase equipment for a project         the criminal information that was
ing procedures to meet USAID             ﬁnanced by another international         ﬁled in federal court and will not
regulations; implementing a              donor organization. The funding          prosecute the company for the false
separation-of-duties policy; hiring      was provided to the organization         claims submitted to the United States




                                                                               SEMIANNUAL REPORT TO THE CONGRESS             21
     provided the company fully complies     EMPLOYEE                                 Investigation Leads to
     with the terms of the agreement for                                              Resignation of USAID
                                             INTEGRITY
     27 months. USAID also entered                                                    Employee
     into a separate corporate compliance
     agreement with the company.             Investigation Results in                 A USAID direct-hire employee
                                             Administrative Action for                resigned from USAID following an
                                             USAID Employees for                      investigation into whistleblower­
     Investigation Leads to
                                             Computer Misuse                          retaliation allegations brought against
     Indictments and Arrests for
                                                                                      the employee. The investigation
     Fraud                                   An OIG investigation discovered          revealed that the employee coerced
                                             evidence of computer misuse by           a USAID contractor company into
     A joint USAID/OIG, Federal
                                             approximately four USAID mission         withdrawing an employment offer
     Bureau of Investigation, Internal
                                             employees. The investigation initially   made to an individual who had
     Revenue Service-Criminal Investi­
                                             found sexually explicit materials        previously worked for the employee
     gations Division investigation
                                             (SEM) on USAID computers in one          as a third-country national (TCN)
     operating under the auspices of
                                             mission and found links to USAID         on USAID projects. The former
     the Department of Justice Joint
                                             employees in other missions. Speciﬁ­     TCN employee claimed that the
     Terrorism Task Force resulted in
                                             cally, e-mails were found containing     employee’s conduct was in retaliation
     the indictment of ﬁve individuals
                                             SEM or SEM attachments. All              for the TCN employee’s reporting
     working for an American nonproﬁt
                                             employees involved were counseled        of inappropriate conduct by the
     organization. Subsequent to
                                             and issued letters of admonishment       employee.
     the indictments, four of the ﬁve
                                             stipulating that any subsequent
     individuals were placed under
                                             infractions would result in disciplin­
     arrest. In addition to several other                                             Investigation Leads to
                                             ary action. Further, the Regional
     charges, the defendants have been                                                Employee Termination
                                             Legal Advisor will conduct ethics
     indicted under 18 U.S.C. Section
                                             sessions emphasizing USAID’s policy      An OIG investigation revealed
     666 – “Theft or Bribery Concerning
                                             regarding appropriate computer use.      that an FSN employee engaged
     Programs Receiving Federal Funds.”
                                                                                      in a scheme to defraud USAID
     Beginning around January 1, 1997,       Investigation Results in                 employees and the mission of
     the defendants had entered into a       Administrative Action for                funds related to travel arrangements
     series of agreements with USAID         USAID Employees for Filing               booked by the FSN through local
     for projects for providing relief in                                             travel agencies. As a result of initial
                                             False Travel Vouchers
     Mali, Africa, totaling approximately                                             investigative efforts, the mission
     $2.3 million. The agreements were       An OIG investigation revealed            terminated the employee.
     terminated by USAID on December         that two USAID Foreign Service
     19, 1999. The indictment states         National (FSN) ﬁnancial analysts
     that the defendant organization         were receiving reimbursement based
     failed to provide matching funds        on fraudulent travel vouchers they
     as required by the USAID-funded         submitted. As a result of the OIG
     agreements; that the defendants         investigation, the two FSNs each
     retained and failed to return $84,922   received a three-day suspension
     in USAID funds as required after the    without pay and are required to
     agreements were terminated; and that    reimburse USAID for the overpay­
     the defendants knowingly converted      ments.
     and intentionally misapplied USAID
     funds for other than the intended
     and contracted purpose.




22   SEMIANNUAL REPORT TO THE CONGRESS
GENERAL STRATEGY FOR THE AFRICAN
DEVELOPMENT FOUNDATION (ADF)
AND THE INTER-AMERICAN
FOUNDATION (IAF)

A         DF provides grants directly
          to community groups
          in Africa. Congress
appropriated $23 million to ADF
in ﬁscal year 2007, and ADF
                                        and oversight. OIG issues annual
                                        ﬁnancial statement audits of ADF
                                        and IAF.
                                        Audits of ADF’s and IAF’s ﬁnancial
currently supports approximately        statements for ﬁscal years 2005
228 projects in 16 African countries.   and 2006 were performed under
IAF provides development grants         OIG oversight by public account­
directly to local organizations in      ing ﬁrms. The audits resulted
Latin America and the Caribbean.        in unqualiﬁed opinions with no
Congress appropriated $19.3 million     recommendations.
to IAF in ﬁscal year 2007, and IAF      [Audit Reports Nos. 0-ADF-07-002-C
currently supports 230 projects in      and 0-IAF-07-003-C]
26 countries. Both foundations are
U.S. Government corporations.
OIG conducts audits of ADF
and IAF. OIG also contracts with
nonfederal auditors to perform
ﬁnancial audits and provides
ongoing technical audit advice




                                                                             SEMIANNUAL REPORT TO THE CONGRESS   23
               A

               P

               P

  REPORTING    E
REQUIREMENTS   N
               D
               I
               C
               E
               S

                    25
                   USAID FINANCIAL AUDIT REPORTS ISSUED

                     October 1, 2006 through March 31, 2007

                                                                                                    Amount of
     Report        Date of                                                                           Findings        Type of
     Number        Report                                Report Title                                ($000s)         Findings

                                          --PROGRAMS AND OPERATIONS-­

  0-000-07-001-C   11/15/06   Report on the Audit of USAID’s Financial Statements for Fiscal
                              Years 2006 and 2005

                                       --FOREIGN-BASED ORGANIZATIONS-­

  0-000-07-014-D   12/20/06   RedR -- Engineers for Disaster Relief, Report on Follow-up Audit of
                              Accounting System
  0-000-07-020-D   02/06/07   Medicins du Monde-Greece, Report on Audit of Pre-Award
                              Accounting System Survey
  1-527-07-001-N   11/22/06   Closeout Audit of the Fund Accountability Statement of the                 22             QC
                              “Transparency and Control of the Decentralization Process,” Grant
                              Agreement No. LA-527-0402-CG-01, Managed by the Controller                  1             UN
                              General of the Republic of Peru, for the Period from October 29,
                              2002 to April 30, 2004
  1-526-07-001-R   10/04/06   Financial Statement Audit of Programs No. 526-A-00-03-00060­                2             QC
                              00, National Environmental Reform and Ecoregional Planning of
                              the Northern Block of the Interior Atlantic Rainforest, Health
                              Decentralization and Community Participation, Managed by the
                              Instituto de Derecho y Economia Ambiental for the Year Ended
                              December 31, 2005
  1-525-07-002-R   10/05/06   Audit of the Financial Statements of the Ecological Trust Fund
                              of Panama Under the Natural Resources Management Project,
                              Agreement No. 525-0308, Managed by the Foundation for the
                              Conservation of Nature Resources, for the Year Ended December
                              31, 2005
  1-511-07-002-N   12/04/06   Close-Out Audit of the Fund Accountability Statement of                    87             QC
                              the Health Program for Municipalities of the Yungas Region,
                              Cooperative Agreement No. 511-A-00-01-00058-00, Managed by                 40             UN
                              Servicios Educativos (SERVIR), for the Period from January 1, 2005
                              to January 31, 2006
  1-522-07-003-N   02/01/07   Audit of the Financial Statements of the Government of Honduras
                              Resources Under the Trust Fund Agreement, Managed by USAID/
                              Honduras, for the Period From October 1, 2003 to September 30,
                              2005
  1-527-07-003-R   10/05/06   Close-Out Financial Statement Audit of Coalition for Congressional
                              Reform,Agreement No. 527-A-00-02-00167-00, Managed by
                              Movimiento Manuela Ramos, for the Period From January 1, 2005
                              Through July 21, 2005

                                                                                                    BU--Better Use of Funds

                                                                                                    QC--Questioned Costs

                                                                                                    UN--Unsupported Costs

                                                                                                    Note: UN is part of QC





Appendix A                                                                    SEMIANNUAL REPORT TO THE CONGRESS                 27
                                                                                                                  Amount of
        Report                  Date of                                                                            Findings   Type of
        Number                  Report                                Report Title                                 ($000s)    Findings
     1-527-07-004-R             10/10/06   Financial Statement Audit of the Program “Acciones de Prevencion
                                           y Atencion de la Salud Mental y los Derechos Humanos en el
                                           Marco del Programa Integral de Reparaciones,” Agreement No.
                                           527-G-00-04-0080-00, Managed by Centro de Atencion Psicosocial
                                           for the Period from June 7, 2004 to December 31, 2005
     1-522-07-005-R             10/06/06   Closeout Audit of USAID Resources Managed by the Public                   92         QC
                                           Ministry Under Project No. 522-0394, Strengthened Rule of Law
                                                                                                                     87         UN
                                           and Respect for Human Rights Program, for the Period January 1,
                                           2005 to September 30, 2005
     1-522-07-006-R             10/11/06   Close-Out Audit of the Fund Accountability Statement of
                                           “Sustainable Improvements in Family Health Program,” Cooperative
                                           Agreement No. 522-G-00-02-00-354-00, Managed by the
                                           Asociacion Hondurena de Planificacion de Familia, for the Period
                                           from October 1, 2004 to December 31, 2005
     1-527-07-007-R             10/11/06   Financial Statement Audit of Reproductive Health in the
                                           Community Project,Agreement No. 527-0355-A-00-5372-00,
                                           Managed by Movimiento Manuela Ramos, for the Year Ended
                                           December 31, 2005
     1-527-07-008-R             10/11/06   Close-Out Financial Statement Audit of Reproductive Health in
                                           the Community Project,Agreement No. 527-0355-A-00-5372-00,
                                           Managed by Movimiento Manuela Ramos, for the Period from
                                           January 1, 2006 to July 31, 2006
     1-527-07-009-R             10/16/06   Financial Audit of the Projects Financed by the United States
                                           Agency for International Development (USAID) and Administered
                                           by Asociacion Benefica Prisma and the Asociacion Benefica Prisma
                                           Institutional Financial Statements for the Period Between January 1,
                                           and December 31, 2005
     1-527-07-010-R             10/17/06   Financial Audit of the Project “Transparencia en las Adquisiciones
                                           Estatales,” Under the Letter of Understanding No. 527-0402,
                                           Managed by the Consejo Superior de Contrataciones y
                                           Adquisiciones del Estado, for the Period from February 13, 2003 to
                                           December 31, 2005
     1-527-07-011-R             10/26/06   Financial Statement Audit of the Bilateral Grant Agreement No.             8         QC
                                           527-0391,“Addressing the Threats of Emerging and Reemerging
                                                                                                                      5         UN
                                           Infectious Diseases - VIGIA Project,” Managed by the National
                                           Institute of Health for the Period from January 1, 2004 to
                                           December 31, 2005
     1-523-07-012-R             10/23/06   Report on the Fund Accountability Statement in Accordance With
                                           the Agreement Made Between the Mexican Nature Conservation
                                           Fund and the United States Agency for International Development
                                           for the National Enabling Environment for Mexico Program for the
                                           Period From January 1 to December 31, 2005



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





28      SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                   Amount of
     Report        Date of                                                                          Findings        Type of
     Number        Report                                Report Title                               ($000s)         Findings
  1-523-07-013-R   10/27/06   Financial Statement Audit of the Trust Fund Established Under
                              Cooperative Agreement No. 523-4007-A-6001-00, Managed by
                              the Mexican Nature Conservation Fund,A.C., for the Year Ended
                              December 31, 2005
  1-511-07-014-R   10/27/06   Audit of the Fund Accountability Statement of the Donation
                              Agreement No. 511-A-00-02-00282-00, Managed by Sustainable
                              Technologies Promotion Center, for the Year Ending December 31,
                              2004
  1-511-07-015-R   10/27/06   Audit of the Fund Accountability Statement of the Donation
                              Agreement No. 511-A-00-02-00282-00, Managed by Sustainable
                              Technologies Promotion Center, for the Year Ending December 31,
                              2005
  1-526-07-016-R   10/27/06   Financial Statement Audit of the Program No. 526-A-00-00-00125­
                              00,“Strengthening the Sustainable Management of the Chaco and
                              Pantanal Ecoregions,” Managed by the Fundacion Para el Desarrollo
                              Sustenable del Chaco, for the Year Ended December 31, 2005
  1-596-07-017-R   10/30/06   Fund Accountability Statement Audit of the Project “Improved
                              Environmental Management in the Mesoamerican Biological
                              Corridor,” USAID Project No. 596-0185, Managed by Secretaria
                              General de la Integracion Centro Americana and Comision Centro
                              Americana de Ambiente y Desarrollo, for the Period October 1,
                              2004 Through September 30, 2005
  1-527-07-018-R   11/07/06   Financial Audit Report of USAID Agreement No. 527-0407,“STEM
                              Project,” Managed by the National Environmental Council, for the
                              Period From January 1, 2005 Through December 31, 2005
  1-520-07-019-R   11/07/06   Audit of the Fund Accountability Statement of the PL-480 Title II
                              Program,Agreement No. FFP-A-00-03-00015-00, Managed by the
                              Asociacion SHARE of Guatemala, for the Year Ended December 31,
                              2005
  1-511-07-020-R   11/27/06   Closeout of the Financial Statement Audit of the Program for the
                              Communication Strategy Supporting Health Organizations in the
                              Public and Private Sectors of Bolivia, Cooperative Agreement No.
                              511-A-00-01-0067-00, Managed by the Center for Communication
                              Programs Bolivia, for the Period from January 1 (Inception) to
                              November 30, 2005
  1-511-07-021-R   11/27/06   Fund Accountability Statement Audit of the Integral Health Project
                              Chapare, Grant Agreement No. 511-0660, Managed by the Ministry
                              of Health and Sport, for the Period from September 1 (Inception)
                              to December 31, 2005
  1-596-07-022-R   11/30/06   Close-Out Audit of the Fund Accountability Statement of the Small
                              Grants for the Environmental Management Program, Cooperative
                              Agreement No. 596-A-00-03-00058-00, Managed by the Centro
                              Agronomico Tropical de Investigacion y Ensenanza for the Period
                              from January 1, 2005 to December 31, 2005
                                                                                                   BU--Better Use of Funds

                                                                                                   QC--Questioned Costs

                                                                                                   UN--Unsupported Costs

                                                                                                   Note: UN is part of QC





Appendix A                                                                   SEMIANNUAL REPORT TO THE CONGRESS                 29
                                                                                                                  Amount of
        Report                  Date of                                                                            Findings   Type of
        Number                  Report                                Report Title                                 ($000s)    Findings
     1-511-07-023-R             12/04/06   Fund Accountability Statement Audit of Integrated Health Project,         14         QC
                                           Grant Agreement No. 511-0658, Managed by the Ministry of Health
                                                                                                                      1         UN
                                           and Sport, for the Period May 1 (Inception) to December 31, 2005
     1-511-07-024-R             12/04/06   Close-Out Fund Accountability Statement of the Integrated Health           4         QC
                                           Project, Grant Agreement No. 511-0644, Managed by the Ministry
                                           of Health and Sport, for the Period from January 1, 2005 to June 30,
                                           2006
     1-511-07-025-R             12/07/06   Fund Accountability Statement Audit of “Promoting the Full                725        QC
                                           Exercise of Sexual and Reproductive Rights of Bolivian Women,
                                                                                                                     296        UN
                                           Men and Adolescents,” Cooperative Agreement No. 511-A-98­
                                           0015800, and “Family Planning and Reproductive Health Services,”
                                           Cooperative Agreement No. 511-A-00-04-00298-00, Managed
                                           by the Center for Research, Education and Services, for the Year
                                           Ended December 31, 2005
     1-518-07-026-R             12/07/06   Financial Statement Audit of “Program of Financial Sustainability
                                           and Strategic Alliances,” Agreement No. 518-A-00-98-00-00187-00,
                                           and the “Program to Strengthen Local Governments in Ecuador,”
                                           Agreement No. 518-A-00-04-00-00142-00, Managed by Fundacion
                                           Esquel - Ecuador, for the Year Ended December 31, 2005
     1-527-07-027-R             01/03/07   Fund Accountability Statement of the Cooperative Agreement                 6         QC
                                           No. EDG-A-00-02-00036-00,“Centro Andino de Excelencia Para
                                                                                                                      6         UN
                                           la Capacitacion de Maestros (Andean Center of Excellence for
                                           Teacher Training),” Managed by Universidad Peruana Cayetano
                                           Heredia, for the Year Ended December 31, 2005
     1-521-07-028-R             01/12/07   Financial Statement Audit of USAID Resources Under Cooperative             1         QC
                                           Agreement No. 521-A-00-04-00040-00, Managed by the Child
                                                                                                                      1         UN
                                           Health Institute, for the Period From September 23, 2004 to
                                           December 31, 2005
     1-521-07-029-R             01/12/07   Financial Statement Audit of USAID Resources Under Cooperative
                                           Agreement No. 521-A-00-99-00070-00, Managed by Fondation
                                           Haitienne de l’Enseignement Prive, for the Period From August 1,
                                           2004 to July 31, 2005
     1-511-07-030-R             01/12/07   Close-Out Fund Accountability Statement Audit of the PROSIN II
                                           Chapare/Yungas Project, Grant Agreement No. 511-0660 for the
                                           Period From January 1 to July 31, 2006, Managed by the Integrated
                                           Health Project II Under the Ministry of Health and Sport
     1-518-07-031-R             01/12/07   Fund Accountability Statement Audit of the Program for                    39         QC
                                           Strengthening Democracy in Ecuador,Agreement No. 518-A-00-03­
                                                                                                                     26         UN
                                           00054-00, Managed by the Citizen Participation Corporation, for
                                           the Year Ended December 31, 2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





30      SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                     Amount of
     Report        Date of                                                                            Findings        Type of
     Number        Report                                 Report Title                                ($000s)         Findings
  1-520-07-032-R   01/12/07   Closeout Audit of the Fund Accountability Statement of the
                              “Emergency Response to Tropical Storm Stan” Project,Agreement
                              No. 520-G-00-06-00018-00, Managed by the Asociacion SHARE of
                              Guatemala, for the Period From October 31, 2005 to August 31,
                              2006
  1-511-07-033-R   01/26/07   Close-Out Fund Accountability Statement of the Integrated Health
                              Project II, Grant Agreement No. 511-0643, Managed by the Ministry
                              of Health and Sport, for the Period from January 1 to July 31, 2006
  1-520-07-034-R   01/26/07   Audit of the Fund Accountability Statement of the Program to
                              Strengthen the Competitiveness of Guatemalan Trade and Products,
                              Cooperative Agreement No. 520-A-00-05-00009-00, Managed
                              by the Asociacion Gremial de Exportadores de Productos no
                              Tradicionales de Guatemala, for the Period From October 14, 2004
                              to December 31, 2005
  1-521-07-035-R   02/02/07   Closeout Audit of the Fund Accountability Statement of USAID                33             QC
                              Program for the Recovery of the Economy in Transition, Under
                                                                                                          33             UN
                              Cooperative Agreement No. 521-A-00-99-00073-00, Managed by
                              the Societe Financiere Haitienne de Development S.A., for the
                              Period From October 1, 2004 to September 30, 2005
  1-527-07-036-R   02/01/07   Closeout Fund Accountability Statement of the Institute for High-
                              Quality Health Care -- Max Salud, Cooperative Agreement 527-A­
                              00-99-00307-00, for the Period From January 1, 2006 to September
                              30, 2006
  1-522-07-037-R   02/05/07   Audit of the Fund Accountability Statement for the Rural Water
                              and Sanitation Program, Under Implementation Letters No. 522­
                              0410.03-193 and No. 522-0410.05-137, Managed by the Fondo
                              Hondureno de Inversion Social Through the Directorate of Major
                              Infrastructure, for the Period From October 1, 2005 Through
                              March 31, 2006
  1-518-07-038-R   02/13/07   Close-out Financial Statement Audit of the “Strategic
                              Communication in the Condor Bioreserve” Project No. 518-A-00­
                              03-00153-00, Managed by the OIKOS Corporation (Corporacion
                              de Gestion Tecnologica y Cientifica Sobre el Ambiente), for the
                              Period from April 1, 2005 to June 30, 2006
  1-522-07-039-R   02/16/07   Financial Statement Audit of the Central American and Dominican            701             QC
                              Republic Centers of Excellence for Teacher Training Program,
                                                                                                         701             UN
                              Cooperative Agreement No. 522-A-00-02-00348-00, Managed by
                              Universidad Pedagogica Nacional Francisco Morazan, for the Year
                              Ended September 30, 2005
  1-511-07-040-R   02/15/07   Close-out Fund Accountability Statement Audit of Integrated
                              Health Project II, Grant Agreement No. 511-0658, Managed by the
                              Ministry of Health and Sport, for the Period January 1, 2006 to July
                              31, 2006


                                                                                                     BU--Better Use of Funds

                                                                                                     QC--Questioned Costs

                                                                                                     UN--Unsupported Costs

                                                                                                     Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                 31
                                                                                                                Amount of
         Report                 Date of                                                                          Findings   Type of
         Number                 Report                               Report Title                                ($000s)    Findings
     1-511-07-041-R             02/28/07   Financial Statement Audit of the Primary Attention in Integrated        31         QC
                                           Health Program and the Community Health Project, Cooperative
                                                                                                                   16         UN
                                           Agreement Nos. 511-A-00-98-00156-00 and 511-A-00-05-00113­
                                           00, Managed by the Integrated Health Coordination Program, for
                                           the Year Ended December 31, 2005
     1-518-07-042-R             02/28/07   Audit of the Fund Accountability Statement for the Activity,
                                           “Program in Favor of Community Strengthening Initiatives in
                                           Northern Ecuador,” Cooperation Agreement No. 518-A-00-01­
                                           00010-00, Managed by the International Organization for Migration,
                                           for the Period From January 1, 2005 to December 31, 2005
     1-511-07-043-R             02/28/07   Close-out Fund Accountability Statement Audit of USAID
                                           Resources Under Cooperative Agreement No. 511-A-00-04-00207,
                                           Managed by the Federacion de Asociaciones Municipales de Boliva,
                                           for the Period August 16, 2004 to April 28, 2006
     1-511-07-044-R             03/12/07   Fund Accountability Statement Audit of the Projects: (1) Social         25         QC
                                           Marketing,Agreement No. 511-A-00-02-00295-00, and (2) Partners
                                                                                                                   25         UN
                                           for Development,Agreement No. 511-A-00-02-00261-00, for the
                                           Year Ended December 31, 2005; and (3) PROSALUD Institutional
                                           Consolidation,Agreement No. 511-A-00-01-00262-00, for the
                                           Quarter Ended March 31, 2005 (Close-out), Managed by the
                                           Asociacion de Proteccion a la Salud (PROSALUD)
     1-596-07-045-R             03/29/07   Closeout Audit of the Fund Accountability Statement of the
                                           “Greater Competitiveness For Central America in the Global
                                           Markets” Project ,Agreement No. 596-0184.20, Managed by the
                                           Secretariat for the Central American Economical Integration
                                           (SIECA) for the Period From January 1, 2005 to May 31, 2006
     4-623-07-001-R             10/04/06   Audit of the Regional Centre for Quality of Health Care Under           26         QC
                                           USAID Limited Scope Grant Agreement No. 6230010.40-00002 for
                                                                                                                    8         UN
                                           the Period July 1, 2002 to June 30, 2004
     4-656-07-001-N             12/18/06   Close-Out Audit of the USAID Resources Managed by CTA -                2,646       QC
                                           Confederacao das Associacoes Economicas de Mocambique Under
                                                                                                                  2,060       UN
                                           the Mission’s Special Objective, Improved Enabling Environmental
                                           for Private Sector-led Growth and Development, Cooperative
                                           Agreement No. 656-A-00-99-00022 for the period June 29, 1999 to
                                           September 30, 2004
     4-617-07-002-R             10/31/06   Close-Out Audit of The Environmental Conservation Trust Under           52         QC
                                           USAID Award No. 617-A-00-01-00002-00, for the six months
                                           period ended June 30, 2005
     4-661-07-002-N             12/19/06   Close-Out Audit of the USAID Resources Managed by The                   286        QC
                                           Commercial Bank of Eritrea and The Rural Enterprise Unit Under
                                                                                                                   109        UN
                                           Project Number 661-0009 for the period January 1, 2004 to
                                           December 31, 2005



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





32      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                     Amount of
     Report        Date of                                                                            Findings        Type of
     Number        Report                                Report Title                                 ($000s)         Findings
  4-623-07-003-R   12/19/06   Audit of USAID Resources Managed by The Commonwealth                        13             QC
                              Regional Health Community for East, Central and Southern
                                                                                                           8             UN
                              Africa (CRHC-ECSA) Under Limited Scope Grant Agreement No.
                              6980483.23-80003 for the Period July 1, 2003 to June 30, 2005
  4-615-07-003-N   03/26/07   Close-Out Audit of the USAID Resources Managed by Egerton                 2,902            QC
                              University Under TAMPA I & II and STAK Programs Per Strategic
                                                                                                        2,204            UN
                              Objective Grant Agreement No. 615-007 and Project Agreement
                              No. 615-0268; Project Implementation Letters (PIL) Nos. 3, 5, 7, 10,
                              12, 21, 28, 29, 32, 37 & 41 for the Period May 1, 2001 to September
                              30, 2005
  4-615-07-004-R   12/21/06   Audit of the Kenya Agricultural Research Institute Under USAID             188             QC
                              Award Nos. 615-007 (PIL No. 3) 617-0007 (PIL No. 7), and 615­
                                                                                                         188             UN
                              0268 (PIL No. 51) for the Period July 1, 2004 to June 30, 2005
  4-615-07-004-N   03/26/07   Close-Out Audit of the USAID Resources Managed by the Institute            191             QC
                              for Civic Affairs and Development Per Grant Agreement No. 615­
                                                                                                          88             UN
                              0266-G-00-00108 for the Period September 28, 2000 to August 31,
                              2005
  4-674-07-005-R   03/20/07   Close-out Audit of USAID Resources Managed by Nelson Mandela              2,797            QC
                              Children’s Fund Under Grant Agreement No. 674-G-00-00-00071­
                                                                                                        1,378            UN
                              00 for the Period April 1, 2003 to November 30, 2004
  4-656-07-006-R   03/30/07   Audit of USAID Resources Managed by Foundation for Community                72             QC
                              Development Under Kulhuvuka Cooperative Agreement No. 656­
                                                                                                          61             UN
                              A-00-01-00077-00 for the Period October 1, 2003 to September
                              30, 2004
  5-492-07-001-O   12/07/06   Report on Agreed-Upon Procedures Performed on Financial                    859             QC
                              Records of USAID/Philippines’ Education Quality and Access for
                                                                                                         257             UN
                              Learning and Livelihood Skills Project, Managed by the Notre Dame
                              Foundation for Charitable Activities Inc. - Women in Enterprise
                              Development Under Its Sub-Awards with Creative Associates
                              International Inc. and Education Development Center, for the
                              Period from April 1, 2005, to November 11, 2006
  5-492-07-001-D   03/15/07   Closeout Audit of the Program Titled “Private Sector Family and             17             QC
                              Reproductive Health System,” USAID/Philippines Cooperative
                              Agreement No. 492-A-00-01-00020-00, Managed by FriendlyCare
                              Foundation, Inc., for the Period from January 1, 2005, to December
                              31, 2005
  5-367-07-001-R   10/04/06   Financial Audit of the Program for Enhancement of Emergency                  9             QC
                              Response, USAID/Nepal Cooperative Agreement No. 367-A-00­
                              03-00075-00, Managed by the National Society for Earthquake
                              Technology-Nepal, for the Period from October 1, 2004 to
                              September 30, 2005




                                                                                                     BU--Better Use of Funds

                                                                                                     QC--Questioned Costs

                                                                                                     UN--Unsupported Costs

                                                                                                     Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                 33
                                                                                                                Amount of
         Report                 Date of                                                                          Findings   Type of
         Number                 Report                               Report Title                                ($000s)    Findings
     5-367-07-002-R             10/20/06   Closeout Audit of the Kathmandu Valley Earthquake Risk                   2         QC
                                           Management Action Plan Implementation Project, USAID/Nepal
                                           Grant Agreement No. 367-G-00-00-00080-00, Managed by the
                                           National Society for Earthquake Technology-Nepal, for the Period
                                           from October 1, 2004, to August 31, 2005
     5-367-07-003-N             11/22/06   Financial Audit of the Department of Health Services, Government        23         QC
                                           of Nepal, Under USAID Strategic Objective Grant Agreement,
                                                                                                                    3         UN
                                           Project No. 367-02A1 Implementation Letter No. 36, for the Period
                                           from July 17, 2002, to July 16, 2003
     5-442-07-003-R             11/27/06   Financial Audit of the Institutional Development and Service
                                           Delivery Support Project, USAID/Cambodia Cooperative
                                           Agreement No. 442-A-00-99-00033-00, Managed by the
                                           Reproductive Health Association of Cambodia, for the Period from
                                           January 1, 2005, to December 31, 2005
     5-492-07-004-R             12/08/06   Financial Audit of the Program Titled “Provision of Flood Early          4         QC
                                           Warning to Flood Vulnerable Communities in the Lower Mekong
                                           River Basin, USAID/Philippines Cooperative Agreement No. 492-A­
                                           00-03-00003-00, Managed by The Mekong River Commission, for
                                           the Period from January 1,2003, to December 31, 2005
     5-497-07-005-N             03/02/07   Financial Audit of Costs Incurred and Billed by PT Wijaya Karya to      12         QC
                                           Implement the Aceh road, Bridge Reconstruction and Rehabilitation
                                                                                                                    5         UN
                                           Project, Contract No. 497-C-00-05-00044-00, for the Period from
                                           August 23, 2005, to March 31, 2006
     5-442-07-005-R             12/12/06   Financial Audit of the Institutional Development/Maternal/Child         14         QC
                                           Health/Reproductive Health Project, USAID/Cambodia
                                                                                                                   10         UN
                                           Cooperative Agreement No. 493-A-00-04-00005-00, Managed by
                                           the Reproductive and Child Health Alliance, for the Period from
                                           January 1, 2005, to December 31, 2005
     5-391-07-006-R             01/12/07   Financial Audit of the Four Year Bachelor’s Degree Program,
                                           USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00,
                                           Managed by Forman Christian College, Lahore, for the Period from
                                           August 23, 2004, to June 30, 2005
     5-391-07-007-R             01/12/07   Financial Audit of the Enterprise Development Facility Program,        2,000       QC
                                           Cooperative Agreement No. 391-A-00-03-01010-00, Managed by
                                                                                                                   360        UN
                                           the Pakistan Poverty Alleviation Fund for the Period from October
                                           1, 2003, to June 30, 2005
     5-497-07-008-R             01/30/07   Financial Audit of the Program Titled “Promoting Forest
                                           Certification and Combating Illegal Logging in Indonesia”, USAID/
                                           Indonesia Cooperative Agreement, for the Period from July 1, 2005,
                                           to June 30, 2006




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





34      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                     Amount of
     Report        Date of                                                                            Findings        Type of
     Number        Report                                Report Title                                 ($000s)         Findings
  5-367-07-009-R   02/21/07   Financial Audit of the Project Titled “Certification and Sustainable         1             QC
                              Marketing of Non-Timber Forest Product,” USAID/Nepal
                              Cooperative Agreement No. 367-A-00-02-00209-00, Managed by
                              the Asia Network for Sustainable Agriculture and Bioresources, for
                              the Period from January 1, 2005, to September 30, 2005
  5-391-07-010-R   02/22/07   Financial Audit of the Fullbright-USAID Scholarship Program, Grant
                              Agreement No. 391-G-00-04-01035-00, Managed by the United
                              States Educational Foundation in Pakistan, for the Period from
                              September 1, 2004, to August 31, 2005
  5-386-07-011-R   03/08/07   Financial Audit of USAID Funds Managed by the ICICI Bank Limited,
                              for the Year Ended March 31, 2006
  6-263-07-001-R   12/14/06   Financial Audit of USAID Resources Managed and Expenditures
                              Incurred by Egyptian Foundation for Enterprise Development,
                              USAID/Egypt Cooperative Agreement No. 263-A-00-03-00049-00,
                              for the Period From January 1, 2005,Through December 31, 2005
  6-263-07-002-R   12/24/06   Financial Close-Out Audit of USAID Resources Managed by the
                              Ministry of Health and Population, Healthy Egyptians 2010, Project
                              No. 263-0287.04, Implementation Letter No. 3, for the Period From
                              June 1, 2004,Through July 31, 2006
  6-263-07-003-R   02/05/07   Financial Audit of USAID Resources Managed by the Ministry of
                              Health and Population, Project No. 263-0287-05, Implementation
                              Letter No. 2, Fund Accountability Statements of Communication for
                              Healthy Living Project for All Sectors and Close-Out Financial Audit
                              of Focus on Family Health Sector for the Period From October 1,
                              2003,Through December 31, 2005
  6-278-07-004-R   03/08/07   Financial Audit of USAID Resources Managed by the Royal Society
                              for the Conservation of Nature, Social-Economic Development for
                              Nature Conservation, Under Cooperative Agreement No. 278-A­
                              00-00-00212-00, for the Period From June 1, 2004, Until April 30,
                              2006
  6-294-07-005-N   11/09/06   Audit of the Fund Accountability Statement of USAID Resources
                              Managed by American Near East Refugee Aid Implemented by Israel
                              Palestine Centre for Research and Information Under Award No.
                              294-G-00-03-00219-00, “Agricultural Pesticides Workshops for
                              Gaza Farmers,” for the Period from September 12, 2003, to June 30,
                              2005
  6-263-07-005-R   03/21/07   Financial Close-Out Audit of USAID Resources Managed and                    17             QC
                              Expenditures Incurred by the National Population Council/
                              Institutional Development Project, USAID/Egypt Grant Agreement
                              No. 263-0287.02 Implementation Letter No. 3, for the Period From
                              April 1, 2003, to December 31, 2005




                                                                                                     BU--Better Use of Funds

                                                                                                     QC--Questioned Costs

                                                                                                     UN--Unsupported Costs

                                                                                                     Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                 35
                                                                                                            Amount of
        Report                  Date of                                                                      Findings   Type of
        Number                  Report                              Report Title                             ($000s)    Findings
     6-294-07-006-N             11/09/06   Audit of the Fund Accountability Statement of USAID Resources        5         QC
                                           Managed by Ma’an Development Center Sub-Grant Under World
                                           Vision Cooperative Agreement No. 294-A-00-02-00226-00,“Job
                                           Opportunities through Basic Services Program,” for the Period
                                           from September 1, 2002, to August 31, 2005
     6-294-07-008-N             11/30/06   Examination Procedures Related to An-Nuwei’meh Charitable
                                           Society’s Compliance With Grant Terms And Conditions Awarded
                                           By Associates In Rural Development Inc. Under USAID Prime
                                           Contract No. 294-C-00-02-00211-00 For The Emergency
                                           Assistance Program for January 3, 2004, to May 31, 2005
     6-294-07-009-N             11/30/06   Examination Procedures Related to Beit Lahiya Development
                                           Association’s Compliance With Grant Terms and Conditions
                                           Awarded By Associates In Rural Development Inc. Under USAID
                                           Prime Contract No. 294-C-00-02-00211-00 For the Emergency
                                           Assistance Program For the Period From January 14, 2004, to
                                           October 19, 2004
     6-294-07-010-N             11/30/06   Examination Procedures Related to Elderly Home Charitable
                                           Society’s Compliance With Grant Terms and Conditions Awarded
                                           By Associates In Rural Development Inc. Under USAID Prime
                                           Contract No. 294-C-00-02-00211-00 For the Emergency Assistance
                                           Program For the Period From June 25, 2003, to January 31, 2005

     6-294-07-012-N             12/20/06   Examination Procedures Related to Palestinian Early Childhood
                                           Educational Programs’ Compliance With Grant Terms and
                                           Conditions Awarded by Associates in Rural Development Inc.
                                           Under USAID Prime Contract No. 294-C-00-02-00211-00 for the
                                           Emergency Assistance Program for the Period July 15, 2003, to
                                           September 5, 2005
     6-294-07-013-N             12/28/06   Audit of USAID Resources Managed by Save the Children
                                           Federation Under Cooperative Agreement No. 294-A-00-04­
                                           00220-00 “Palestinian Infrastructure for Needed Employment
                                           Program” for the Period From September 28, 2004, to September
                                           30, 2005
     6-294-07-014-N             12/28/06   Audit of USAID Resources Managed by Palestinian Trade Center         3         QC
                                           Under Cooperative Agreement 294-A-00-04-00214-00 for the
                                           Period From September 20, 2004, to September 19, 2005
     6-294-07-015-N             02/11/07   Audit of USAID Resources Managed by Save the Children
                                           Federation Under Cooperative Agreement No. 294-A-00-02­
                                           00233-00,“Job Opportunities through Development of Small Scale
                                           Basic Community Infrastructure Program,” for the Period from
                                           August 1, 2003, to September 30, 2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





36      SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix A
                                                                                                    Amount of
      Report       Date of                                                                           Findings         Type of
      Number       Report                                Report Title                                ($000s)          Findings
  6-294-07-020-N   02/28/07   Examination of ARAR General Contracting Company’s Compliance
                              with Contract Terms and Conditions Under Sub-Contract No.
                              IQC-SWIFT-807-002 “Tulkarem and Shoufeh Water Improvements”
                              with Camp Dresser and McKee International, Inc., Funded by U.S.
                              Agency for International Development for the Period from May 25,
                              2004, to August 25, 2004
  6-294-07-023-N   03/04/07   Audit of Arabtech Jardaneh Subcontract Costs Under CH2MHILL’s              98             QC
                              Integrated Water Resources (Phase III) Contract With USAID
                              Contract No. 294-C-00-00-00063-00 for the Period From
                              September 5, 2001, to September 30, 2004
  6-294-07-024-N   03/11/07   Examination of the Palestinian Tractor and Equipment Company’s
                              Compliance With the Terms and Conditions Under Sub-Contract
                              Number EOC-803-022 with Camp Dresser and McKee
                              International, Inc., Funded by U.S.Agency for International
                              Development, Installation of Thirteen Generators at Different
                              Municipalities, for the Period From March 18, 2003, to November
                              11, 2003
  6-294-07-026-N   03/12/07   Examination of Alkhiesi Company’s Compliance With the Contract
                              Terms and Conditions Under Its Sub-Contract No. G-EOC-806­
                              015 With Camp Dresser & McKee International, Inc., Funded by
                              U.S.Agency for International Development,“Rafah Wastewater
                              Treatment Plant Pump Installation Project,” for the Period From
                              June 13, 2004, to September 5, 2004
  6-294-07-027-N   03/14/07   Examination of the Engineering Center for Heating and A.C.
                              Company’s Compliance with Contract Terms and Conditions
                              Under Its Sub-Contract No. EOC-806-028-04 with Camp Dresser
                              and McKee International, Inc.,Azzoune South Well and Booster
                              Station Project, for the Period from June 14, 2004, to December 27,
                              2004
  6-294-07-029-N   03/18/07   Audit of the Fund Accountability Statement of USAID Resources              283            QC
                              Managed by Palestinian Trade Center Under Award No. 294-A-00­
                              01-00103-00,“Increased Trade and Investments in the West Bank
                              and Gaza,” for the Period From March 20, 2001, to March 19, 2004
  6-294-07-030-N   03/19/07   Examination of Alkhiesi Company’s Compliance With the Contract
                              Terms and Conditions Under Sub-Contract Number G-EOC-812­
                              006 With Camp Dresser and McKee International, Inc.,“Gaza
                              City Sewerage Project,” for the Period From April 10, 2004, to
                              September 5, 2004
  6-294-07-032-N   03/21/07   Examination Procedures Related to Resources Provided to the
                              Palestinian Authority Through the Ministry of Finance Under the
                              Cash Transfer Grant Agreement Dated July 16, 2003,“USAID
                              Activity Number 294-W-008,” for the Period from October 1,
                              2005, to December 31, 2005 (Eighth Reporting Period)



                                                                                                    BU--Better Use of Funds

                                                                                                    QC--Questioned Costs

                                                                                                    UN--Unsupported Costs

                                                                                                    Note: UN is part of QC





Appendix A                                                                   SEMIANNUAL REPORT TO THE CONGRESS                   37
                                                                                                                Amount of
        Report                  Date of                                                                          Findings   Type of
        Number                  Report                                Report Title                               ($000s)    Findings
     7-608-07-001-R             10/31/06   Audit of USAID Resources Managed by the Rural Girl’s Support
                                           Committee (CSSF) Under Cooperative Agreement No. 608-A-00­
                                           02-00137-00 for the Period September 1, 2002 through August 31,
                                           2003 and the Period September 1, 2003 through August 31, 2004
     7-641-07-001-D             12/29/06   Close-out Audit of the USAID/Ghana Resources Managed by                 177        QC
                                           MOLTENO, Under Cooperative Agreement No. 641-A-00-04­
                                                                                                                   71         UN
                                           00048 for the Period December 17, 2003 to September 30, 2004
     7-675-07-002-R             11/30/06   Audit of USAID Resources Provided to the Agricultural Marketing         110        QC
                                           Agency for the Period October 1, 2001 through September 30,
                                                                                                                   15         UN
                                           2004
     7-624-07-001-N             03/29/07   Consolidated Audit of USAID and Other Donor Resources
                                           Granted to the Permanent Interstate Committee for Drought
                                           Control in the Sahel for the Period January 1, 2005 to December
                                           31, 2005
     8-118-07-001-N             11/08/06   Audit of Moscow School of Political Studies, for USAID
                                           Cooperative Agreement No. 118-A-00-03-00090, for Year Ended
                                           December 31, 2005
     8-000-07-001-R             10/10/06   Close-Out Audit of Christian Aid, Covering Nine USAID Awards,
                                           for the Period April 1, 2001 through March 31, 2005

     8-000-07-002-R             11/13/06   Audit of Save the Children UK, for Multiple USAID Awards, for the
                                           Period April 1, 2002 through March 31, 2004
     8-118-07-003-R             11/13/06   Audit of Regional Public Organization the “Initiative” Kuzbass
                                           Center Under Two USAID Cooperative Agreements, for the Year
                                           Ended December 31, 2005
     8-118-07-004-R             12/21/06   Audit of ANO Internews Russia, for USAID Grant No. 118-G-00­
                                           04-00054-00, for Year Ended December 31, 2005

     8-118-07-005-R             01/09/07   Audit of the Moscow Public Science Foundation, Under USAID
                                           Cooperative Agreement No. 118-A-00-02-00135-00, for the Year
                                           Ended December 31, 2005
     8-118-07-006-R             01/09/07   Audit of Krasnodar Regional Nonprofit Organization “Southern
                                           Regional Resource Center” for Two Cooperative Agreements for
                                           the Year Ended December 31, 2005
     8-118-07-007-R             01/11/07   Audit of USAID-Funded Programs Implemented by the Foundation
                                           for Independent Radio Broadcasting in 2005
     8-000-07-008-R             02/21/07   Audit of Tearfund for Various Grants in Burundi, Sierra Leone, and       7         QC
                                           Sudan, for the Year Ended March 31, 2006
     8-118-07-009-R             01/24/07   Audit of the Center for Fiscal Policy Under USAID Cooperative           12         QC
                                           Agreement No. 118-A-00-03-00084, for the Year Ended December
                                           31, 2005


     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





38      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                   Amount of
     Report        Date of                                                                          Findings        Type of
     Number        Report                                Report Title                               ($000s)         Findings
  8-000-07-010-R   03/08/07   Audit of Three USAID-Funded Programs Implemented by the
                              Association Handicap International in 2005
  8-000-07-011-R   02/22/07   Audit of Five USAID-Funded Programs Implemented by Merlin in
                              2005
  8-118-07-012-R   02/14/07   Audit of USAID-Funded Program Implemented by the Foundation
                              for Information Policy Development in 2005
  8-000-07-013-R   03/13/07   Audit of Seven USAID-Funded Programs Implemented by
                              Solidarites, for the Year Ended December 31, 2005
  8-121-07-014-R   03/07/07   Audit of International Charitable Organization “Center for                 1             QC
                              Ukrainian Reform Education,” Under Grant No. 121-A-00-02­
                              00002-00, for the Year Ending December 31, 2005
  8-118-07-015-R   3/26/07    Audit of the Institute for the Economy in Transition, USAID                7             QC
                              Cooperative Agreement No. 118-A-00-00-00130-00, for the Year
                              Ending December 31, 2005
  E-267-07-003-D   10/19/06   Audit of Fiscal Year 2006 Floor Check and Review of Timekeeping
                              Procedures Under Contract No. 267-C-00-05-00505-00

                                            --U.S.-BASED CONTRACTORS-­

  0-000-07-001-D   12/18/06   Management Systems International, Inc.,Audit on Incurred Costs           109             QC
                              for Fiscal Years Ended April 30, 2003 and April 30, 2004
  0-000-07-002-D   12/18/06   Montgomery Watson Harza Americas, Inc., Report on MWH                     56             QC
                              Americas FY 2003 Incurred Cost
  0-000-07-003-D   12/18/06   Management Sciences for Development, Inc., Report on Audit of            385             QC
                              Incurred Costs for FY Ended December 31, 2002
  0-000-07-004-D   12/18/06   Management Sciences for Development, Inc., Report on Audit of           2,385            QC
                              Incurred Costs for Fiscal Year Ended December 31, 2001
  0-000-07-005-D   12/18/06   Management Sciences for Development, Inc., Report on Audit of            632             QC
                              Incurred Costs for FY Ended December 31, 1999
  0-000-07-006-D   12/20/06   Bechtel National, Inc., Report on Audit of Incurred Costs, Period        495             QC
                              January 1, 2003 through December 31, 2003
  0-000-07-007-D   12/20/06   Louis Berger Group, Inc. -- International, Review of Louis Berger       2,502            QC
                              Fiscal Year 2000 Incurred Cost Response
  0-000-07-009-D   12/20/06   International Management and Communications Corporation,
                              Report on Audit of Fiscal Years 2000 and 2001 Final Indirect Rates
                              and Incurred Cost
  0-000-07-010-D   12/20/06   Management Sciences for Development, Inc., Report on Audit of            332             QC
                              Incurred Costs for Fiscal Year Ended December 31, 2000


                                                                                                   BU--Better Use of Funds

                                                                                                   QC--Questioned Costs

                                                                                                   UN--Unsupported Costs

                                                                                                   Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS               39
                                                                                                                   Amount of
        Report                  Date of                                                                             Findings   Type of
        Number                  Report                                 Report Title                                 ($000s)    Findings
     0-000-07-011-D             12/20/06   Management Sciences for Development, Inc., Report on Audit of              263        QC
                                           Incurred Costs for Fiscal Year Ended December 31, 1998
     0-000-07-012-D             12/20/06   Creative Associates International, Inc.,Audit Report on Billing
                                           System
     0-000-07-013-D             12/20/06   Creative Associates International, Inc.,Audit Report of Estimating
                                           System
     0-000-07-015-D             12/20/06   Community Consulting International,Audit of Calendar Year 1997              1         QC
                                           Incurred Costs
     0-000-07-016-D             12/20/06   Z Systems Corp., Report on Audit of Calendar Year 2003 Incurred
                                           Cost
     0-000-07-017-D             02/22/07   Mendez England & Associates, Inc. (formerly Fomentco, Inc.),               180        QC
                                           Report on Audit of Incurred Costs for Fiscal Year Ended December
                                           31, 1997
     0-000-07-018-D             02/06/07   Mendez England & Associates, Inc. (formerly Fomentco), Report on           239        QC
                                           Audit of Incurred Costs for Fiscal Year Ended December 31, 1999
     0-000-07-021-D             02/22/07   DPK Consulting, Report on Audit of Fiscal Years 2003, 2004 and
                                           2005 Incurred Costs
     0-000-07-022-D             02/06/07   Mendez England & Associates (formerly Fomentco, Inc.), Report on           168        QC
                                           Audit of Fiscal Year 2000 Incurred Costs
     0-000-07-023-D             02/06/07   Mendez England & Associates (formerly Fomentco, Inc.), Report on           247        QC
                                           Audit of Fiscal Year 2001 Incurred Costs
     0-000-07-024-D             03/16/07   Financial Markets International, Inc., Supplemental Report on Audit        47         QC
                                           of Fiscal Year 2000 Incurred Costs
     0-000-07-025-D             03/16/07   Financial Markets International, Inc., Supplemental Report on Audit
                                           of Fiscal Year 2002 Incurred Costs
     0-000-07-026-D             02/16/07   IBM Global Business Services, Public Sector/Federal, Report on
                                           Examination of Paid Vouchers
     0-000-07-027-D             03/16/07   BearingPoint, Inc. (formerly KPMG Consulting), Report on Audit of
                                           Fiscal Year 2001 Incurred Costs
     0-000-07-028-D             03/16/07   University Research Corporation, LLC, Report on Audit of Fiscal             3         QC
                                           Year 1999 Incurred Costs
     0-000-07-029-D             03/16/07   Development Associates, Inc., Report on Audit of Fiscal Years 2003
                                           and 2004 Incurred Costs
     0-000-07-030-D             03/16/07   University Research Corporation, LLC, Report on Audit of Fiscal            140        QC
                                           Year 2000 Incurred Costs
     0-000-07-031-D             03/16/07   International Science and Technology Institute, Inc., Report on Audit      48         QC
                                           of Fiscal Years 2000, 2001, and 2002 Incurred Costs


     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





40      SEMIANNUAL REPORT TO THE CONGRESS                                                                                      Appendix A
                                                                                                   Amount of
     Report        Date of                                                                          Findings        Type of
     Number        Report                                Report Title                               ($000s)         Findings
  0-000-07-032-D   03/16/07   University Research Corporation, LLC, Report on Audit of Fiscal          123             QC
                              Year 2002 Incurred Costs
  0-000-07-033-D   03/16/07   University Research Corporation, LLC, Report on Audit of Fiscal          153             QC
                              Year 2001 Incurred Costs
  0-000-07-034-D   03/16/07   Nathan Associates, Inc., Report on Audit of Fiscal Year 1999
                              Incurred Costs
  0-000-07-035-D   03/16/07   Nathan Associates, Inc., Report on Audit of Fiscal Year 2000               1             QC
                              Incurred Costs
  0-000-07-036-D   03/16/07   Electrotek Concepts, Inc., Report on Audit of Fiscal Years 1999,         682             QC
                              2000, 2001, and 9 Month Period of April 1, 2001 through December
                              31, 2001
  0-000-07-037-D   03/16/07   Electrotek Concepts, Inc., Report on Audit of Fiscal Years 2002,
                              2003, and 2004 Incurred Costs
  0-000-07-038-D   03/16/07   Nathan Associates, Inc., Report on Audit of Fiscal Year 2001               6             QC
                              Incurred Costs
  5-306-07-001-N   10/16/06   Financial Audit of Local Costs Incurred by the Louis Berger Group,
                              Inc. to Implement the Rehabilitation of Economic Facilities and
                              Services Program, USAID/Afghanistan Contract No. 306-C-00-02­
                              00500-00, for the Period from April 1, 2006, to June 30, 2006
  5-306-07-004-N   12/11/06   Financial Audit of Local Costs Incurred by the Louis Berger Group,
                              Inc. to Implement the Rehabilitation of Economic Facilities and
                              Services Program, USAID/Afghanistan Contract No. 306-C-00-02­
                              00500-00, for the Period from July 1, 2006, to September 30, 2006
  6-294-07-002-N   11/05/06   Audit of USAID Resources Managed by Academy for Education
                              Development Under Task Order No. EEE-I-04(805)-01-00010-00
                              “Higher Education Support Initiative,” for the Period from October
                              1, 2003, to September 12, 2004
  6-294-07-003-N   11/07/06   Audit of the Fund Accountability Statement of USAID Resources             52             QC
                              Managed by Financial Markets International Under Award No.
                              PCE-I-04-99-00010-00 “Commercial Transparency, Capital Markets
                              Development Initiative Program” for the Period From October 1,
                              2002, to March 31, 2005
  6-294-07-004-N   11/07/06   Audit of the Fund Accountability Statement of USAID Resources              8             QC
                              Managed by Financial Markets International Under Task Order
                              No. PCE-I-806-99-00010-00,“Financial Markets Reform Program
                              - Phase II for USAID/West Bank and Gaza” for the Period From
                              September 26, 2003, to September 25, 2004

  6-294-07-007-N   11/21/06   Audit of USAID Resources Managed by Academy for Educational                5             QC
                              Development Under Task Order No. EEE-I-07-810-01-00010-00
                              “The Presidential Scholarship Program” for the Period from
                              September 30, 2003, to September 30, 2004


                                                                                                   BU--Better Use of Funds

                                                                                                   QC--Questioned Costs

                                                                                                   UN--Unsupported Costs

                                                                                                   Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS               41
                                                                                                               Amount of
        Report                  Date of                                                                         Findings   Type of
        Number                  Report                               Report Title                               ($000s)    Findings
     6-294-07-011-N             12/11/06   Audit of the Fund Accountability Statement of USAID Resources
                                           Managed by Save the Children Under Cooperative Agreement
                                           No. 294-A-00-04-00205-00,“Community Psychosocial Support
                                           Program” for the Period From July 1, 2004, to September 30, 2005
     6-294-07-016-N             02/12/07   Audit of the Fund Accountability Statement of USAID Resources           1         QC
                                           Managed by Camp Dresser and McKee International, Inc., Under
                                           Task Order 806, Contract No. HRN-I-806-99-00011-00,“Village
                                           Water and Sanitation Program and Emergency Water Operations
                                           Center,” for the Period from September 29, 2003, to January 31,
                                           2005
     6-294-07-017-N             02/14/07   Audit of the Fund Accountability Statement of USAID Resources          230        QC
                                           Managed by Camp Dresser and McKee International, Inc. Under
                                           Task Order 803, Contract No. HRN-I-803-99-00011-00,“Village
                                           Water and Sanitation Program,” for the Period from October 1,
                                           2002, to January 31, 2005
     6-294-07-018-N             02/15/07   Final Closeout Audit of the Fund Accountability Statement              54         QC
                                           of USAID Resources Managed by Camp Dresser and McKee
                                           International, Inc. Under Task Order 812, Contract
                                           No. LAG-I-00-98-00034-00,“Small Water Infrastructure Fast Track,”
                                           for the Period from September 29, 2003, to January 31, 2005
     6-294-07-019-N             02/28/07   Examination of American Intercontinental Constructors, LLC.
                                           Compliance with Contract Terms and Conditions Under USAID
                                           Contract No. 294-C-00-04-00216-00 “Eastern Hebron Bulk Water
                                           Supply System - Package 4B,” for the Period from September 29,
                                           2004, to September 30, 2005
     6-294-07-021-N             02/28/07   Audit of the Fund Accountability Statement of USAID Resources           7         QC
                                           Managed by IBM Corporation Under Contract No. 294-C-00-01­
                                           00110-00,“Improved Maternal Child Health - Maram Project,” for
                                           the Period from July 1, 2003, to April 30, 2005
     6-294-07-022-N             02/28/07   Audit of the Costs Incurred by Chemonics International
                                           Incorporated Under Contract No. DFD-I-00-00171-00 for the
                                           Period from October 1, 2004, to September 30, 2005
     6-294-07-028-N             03/18/07   Audit of the Cost Representation Statement of USAID Resources          98         QC
                                           Managed by Chemonics International Inc. Under Contract
                                           No. 294-C-00-00-00077-00, Civil Society and Democracy
                                           Strengthening Project, for the Period From October 1, 2002, to
                                           September 30, 2005
     6-294-07-031-N             03/19/07   Audit of the Cost Representation Statement of USAID Resources          153        QC
                                           Managed by Development Alternatives, Inc., Under Task Order
                                           No. PCE-I-815-99-00009-00,“The Palestinian Enterprise
                                           Revitalization Project,” for the Period From October 1, 2003, to
                                           September 30, 2005
     6-294-07-033-N             03/26/07   Audit of the Cost Representation Statement of USAID Resources
                                           Managed by Financial Markets International Under Task Order
                                           No. PCE-I-806-99-00010-00 “Financial Markets Reform Program”,
                                           for the Period From October 1, 2004, to September 30, 2005
     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





42      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                      Amount of
     Report        Date of                                                                             Findings        Type of
     Number        Report                                 Report Title                                 ($000s)         Findings
  E-267-07-002-D   10/02/06   Audit of the Accounting System of Unity Resources Group Under
                              Subcontract No. IDG 31-2 with Research Triangle Institute Under
                              Contract No. 267-C-00-05-00505-00
  E-267-07-004-D   10/25/06   Audit of Billed Costs by SkyLink Air and Logistic Support (USA), Inc.        50             QC
                              Under USAID Contract No. DFD-C-00-03-00026-00 for the Period
                                                                                                            2             UN
                              October 1, 2004 through January 31, 2005, and Determination on
                              the Allowability of Previously Questioned Serco, Inc. Costs
  E-267-07-007-D   12/18/06   Audit of Costs Incurred and Billed by Research Triangle Institute            68             QC
                              (RTI) Under Contract No. 267-C-00-05-00505-00 for the period
                              May 9, 2005 through December 31, 2005
  E-267-07-009-D   03/15/07   Audit of Costs Incurred and Billed by Bechtel National, Inc. Under          105             QC
                              Contract No. EEE-C-00-03-00018-00 for the Period
                              October 1, 2005 through February 28, 2006 and Contract
                              No. SPU-C-00-04-00001-00 for the Period October 1, 2005
                              through October 31, 2006

                                                --U.S.-BASED GRANTEES-­

  0-000-07-001-T   11/28/06   Initial Review of the Audit of The Centre for Development and
                              Population Activities for the Fiscal Year Ended December 31, 2003
  0-000-07-001-E   01/04/07   Review of Audit Report of the Czech and Slovak American
                              Enterprise Fund for the Fiscal Year Ended September 30, 2004

  0-000-07-002-T   11/28/06   Initial Review of the Audit of the Pan American Development
                              Foundation for the Fiscal Year Ended September 30, 2003
  0-000-07-003-T   11/28/06   Review of the Audit of Africare for the Fiscal Year Ending June 30,
                              2003
  0-000-07-004-T   12/13/06   Initial Review of Audit Report of Winrock International Institute for
                              Agricultural Development, for the Fiscal Year Ended December 31,
                              2003
  0-000-07-005-T   12/13/06   Initial Review of Audit Report of The Vaccine Fund, for the Year
                              Ending December 31, 2003
  0-000-07-006-T   12/14/06   Initial Review of Audit Report of Sesame Workshop, for the Fiscal
                              Year Ended June 30, 2003

  0-000-07-007-T   12/14/06   Initial Review of Audit Report of International Research and
                              Exchanges Board, Inc., for the Fiscal Year Ended June 30, 2003

  0-000-07-008-T   12/14/06   Initial Review of Audit Report of National Democratic Institute for
                              International Affairs, for the Fiscal Year Ended September 30, 2003

  0-000-07-008-D   12/20/06   Living Water International, Report on Audit of Pre-Award
                              Accounting System Survey



                                                                                                      BU--Better Use of Funds

                                                                                                      QC--Questioned Costs

                                                                                                      UN--Unsupported Costs

                                                                                                      Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                  43
                                                                                                                   Amount of
        Report                  Date of                                                                             Findings   Type of
        Number                  Report                                 Report Title                                 ($000s)    Findings
     0-000-07-009-T             12/14/06   Initial Review of Audit Report of Partnership for Child Healthcare,
                                           Inc., for the Fiscal Year Ended September 30, 2003
     0-000-07-010-T             12/14/06   Initial Review of Audit Report for The Urban Institute for the Fiscal
                                           Year Ended December 31, 2003
     0-000-07-011-T             12/15/06   Initial Review of Audit Report for Family Health International for
                                           the Fiscal Year Ended September 30, 2003
     0-000-07-012-T             12/15/06   Review of Audit Report for the Elizabeth Glaser Pediatric AIDS
                                           Foundation for Fiscal Year Ending December 31, 2003
     0-000-07-013-T             12/15/06   Review of Audit Report for the Elizabeth Glaser Pediatric AIDS
                                           Foundation for Fiscal Year Ending December 31, 2004
     0-000-07-014-T             12/15/06   Initial Review of Audit Report for Concern Worldwide (U.S.), Inc.,
                                           for the Fiscal Year Ended December 31, 2003
     0-000-07-015-T             12/15/06   Initial Review of Audit Report for Concern Worldwide (U.S.), Inc.,
                                           for the Fiscal Year Ended December 31, 2004
     0-000-07-016-T             12/18/06   Review of Audit Report for Center for Excellence in Education for
                                           Fiscal Year Ending December 31, 2003
     0-000-07-017-T             12/20/06   Initial Review of Audit Report for Children’s Resources
                                           International, Inc., for the Fiscal Year Ended December 31, 2003
     0-000-07-018-T             12/20/06   Initial Review of Audit Report for Children’s Resources
                                           International, Inc., for the Fiscal Year Ended December 31, 2004

     0-000-07-019-T             12/20/06   Initial Review of Audit Report for Citizens Development Corps,
                                           Inc., for the Fiscal Year Ended September 30, 2003

     0-000-07-019-D             02/06/07   U.S. Ukraine Foundation, Report on Audit of Accounting and Billing
                                           System
     6-294-07-001-N             10/04/06   Audit of the Fund Accountability Statement of USAID Resources
                                           Managed by Academy for Educational Development, Under Award
                                           No. 294-A-00-02-00228-00,“Support to Local Initiatives for Non­
                                           violent Conflict Resolution,” for the Period From September 1,
                                           2002, to August 31, 2003
     6-294-07-025-N             03/12/07   Audit of the Fund Accountability Statement of Locally Incurred              1         QC
                                           Costs of USAID Resources Managed by Young Men’s Christian
                                           Association, Under Cooperative Agreement
                                           No. 294-A-00-02-00227-00, Job Opportunities Through Basic
                                           Services, for the Period From October 1, 2004, to September 30,
                                           2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





44      SEMIANNUAL REPORT TO THE CONGRESS                                                                                      Appendix A
                                                                                                   Amount of
     Report        Date of                                                                          Findings        Type of
     Number        Report                                Report Title                               ($000s)         Findings
  6-294-07-034-N   03/28/07   Audit of USAID Resources Managed by East Jerusalem YMCA,
                              Sub-Grant Agreement No. SC/CPSP 010, Under Save the Children’s
                              Community Psychosocial Support Program in the West Bank and
                              Gaza, USAID Cooperative Agreement No. 294-A-00-01-00115-00,
                              for the Period From October 1, 2002, to January 31, 2004
  E-267-07-001-D   10/01/06   Audit of Direct Costs Incurred and Billed by the International
                              Republican Institute through the Consortium for Elections and
                              Political Process Strengthening Under USAID Agreement
                              No.AFP-A-00-04-00014-00 for the Period July 9, 2004 through
                              October 31, 2005
  E-267-07-005-D   11/06/06   Audit of Costs Incurred and Billed by International Relief and            71             QC
                              Development, Inc. Under Cooperative Agreement
                                                                                                        59             UN
                              No.AFP-A-00-03-00002-00 from August 1, 2004 through October
                              31, 2005
  E-267-07-006-D   11/06/06   Audit of Costs Incurred and Billed by the National Democratic
                              Institute of International Affairs, Under Cooperative Agreement
                              No. REE-A-00-04-00050-00 from July 26, 2004 to October 31, 2005
  E-267-07-008-D   01/03/07   Audit of Costs Incurred and Billed by the Research Foundation of
                              the State University of New York (SUNY) Under Its Cooperative
                              Subagreement No. 04-04465-IRA.0-408 with National Democratic
                              Institute Under USAID Cooperative Agreement
                              No. REE-A-00-04-00050-00 for the Period July 26, 2004 through
                              December 31, 2005
  E-267-07-010-D   03/27/07   Audit of Costs Incurred and Billed by the International Foundation      3,259            QC
                              for Election Systems Under Cooperative Agreement
                                                                                                      2,773            UN
                              No. 267-A-00-04-00405-00 from September 1, 2004 through
                              September 30, 2005




                                                                                                   BU--Better Use of Funds

                                                                                                   QC--Questioned Costs

                                                                                                   UN--Unsupported Costs

                                                                                                   Note: UN is part of QC





Appendix A                                                                    SEMIANNUAL REPORT TO THE CONGRESS                45
                       USAID PERFORMANCE AUDIT REPORTS ISSUED

                           October 1, 2006 through March 31, 2007

                                                                                                        Amount of
          Report                Date of                                                                  Findings   Type of
          Number                Report                             Report Title                          ($000s)    Findings

                                                      --ECONOMY AND EFFICIENCY--

      1-520-07-001-P            10/06/06   Audit of USAID/Guatemala’s Family Planning Activities           81         BU

      1-520-07-002-P            11/27/06   Audit of USAID/Guatemala’s Management of Its P.L. 480 Non-
                                           Emergency Monetization Program
      1-518-07-003-P            12/14/06   Audit of USAID/Ecuador’s Democracy and Governance
                                           Activities
      1-511-07-004-P            12/26/06   Audit of USAID/Bolivia’s Effectiveness in Complying with
                                           Tiahrt Requirements
      1-511-07-005-P            01/22/07   Audit of USAID/Bolivia’s Family Planning Program

      1-519-07-006-P            03/06/07   Audit of USAID/El Salvador’s Economic Growth Program          11,146       BU

      1-512-07-007-P            03/20/07   Audit of USAID/Brazil’s Health Program

      4-617-07-001-P            12/05/06   Audit of USAID/Uganda’s Compliance With Financial Audit
                                           Requirements Regarding Foreign Recipients

      4-690-07-002-P            12/18/06   Audit of USAID Activities in Limited-Presence Countries
                                           Managed by USAID/Southern Africa

      4-656-07-003-P            12/22/06   Audit of USAID/Mozambique’s Management of P.L. 480 Non-
                                           Emergency Monetization Program
      4-674-07-004-P            02/14/07   Audit of USAID Activities in Limited-Presence Countries
                                           Managed by USAID/South Africa

      5-383-07-001-P            11/30/06   Audit of USAID/SriLanka’s Large-Scale Infrastructure
                                           Rebuilding Activities Under Its Sri Lanka Tsunami
                                           Reconstruction Program
      5-306-07-002-P            02/13/07   Audit of USAID/Afghanistan’s Alternative Livelihoods
                                           Program-Eastern Region

      5-486-07-003-P            02/27/07   Audit of Critical Activities Financed by USAID Regional
                                           Development Mission/Asia’s U.S. Indian Ocean Tsunami
                                           Warning System Program
      6-263-07-001-P            02/21/07   Audit of USAID/Egypt’s Agricultural Exports and Rural
                                           Incomes Project

      7-624-07-001-P            02/27/07   Audit of USAID/West Africa’s Management of the P.L. 480
                                           Non-Emergency Monetization Program in Burkina Faso

     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





46      SEMIANNUAL REPORT TO THE CONGRESS                                                                           Appendix A
                                                                                            Amount of
       Report       Date of                                                                  Findings        Type of
       Number       Report                              Report Title                         ($000s)         Findings
   8-112-07-001-P   12/15/06   Audit of USAID/Azerbaijan’s Economic Growth Program
   9-000-07-003-P   12/04/06   Audit of the Management of USAID’s Federal Employees’
                               Compensation Act (FECA) Program

   9-000-07-004-P   12/22/06   Audit of USAID’s Progress in Implementing the President’s
                               Emergency Plan for AIDS Relief
   9-000-07-005-P   02/08/07   Audit of USAID’s Start-Up of the Supply Chain Management
                               System for the President’s Emergency Plan for AIDS Relief

   A-000-07-001-P   11/15/06   Audit of USAID’s Security Controls Over Financial
                               Management and General Support Systems for Fiscal Year
                               2006
   E-267-07-001-P   11/05/06   Audit of USAID/Iraq’s Civil Society Activities

   E-267-07-002-P   01/22/07   Audit of USAID/Iraq’s Agriculture Reconstruction and
                               Development Program
   E-267-07-003-P   02/04/07   Follow-Up Audit of USAID/Iraq’s Education Activities




                                                                                             BU--Better Use of Funds

                                                                                             QC--Questioned Costs

                                                                                             UN--Unsupported Costs

                                                                                             Note: UN is part of QC





Appendix A                                                                  SEMIANNUAL REPORT TO THE CONGRESS           47
                                 PERFORMANCE AUDIT REPORTS ISSUED

                                   October 1, 2006 through March 31, 2007

                                                                    ADF

                                                                                                                Amount of
        Report             Date of                                                                               Findings   Type of
        Number             Report                                    Report Title                                ($000s)    Findings

                                                      --PROGRAMS AND OPERATIONS-­

     0-ADF-07-002-C        11/15/06      Audit of the African Development Foundation’s Financial Statements
                                         for Fiscal Years 2006 and 2005




                                                                     IAF

                                                                                                                Amount of
        Report                 Date of                                                                           Findings   Type of
        Number                 Report                                Report Title                                ($000s)    Findings

                                                      --PROGRAMS AND OPERATIONS-­

     0-IAF-07-003-C        11/15/06      Audit of Inter-American Foundation’s Financial Statements for Fiscal
                                         Years 2006 and 2005




     BU--Better Use of Funds
     QC--Questioned Costs
     UN--Unsupported Costs
     Note: UN is part of QC




48      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                   USAID MISCELLANEOUS REPORTS ISSUED

                     October 1, 2006 through March 31, 2007

                                                                                                  Amount of
      Report        Date of                                                                        Findings        Type of
      Number        Report                              Report Title                               ($000s)         Findings

                                         --QUALITY CONTROL REVIEWS-­

  0-000-07-001-Q    01/16/07   Quality Control Review of PricewaterhouseCoopers, LLP’s
                               Audit of International Medical Corps for the Fiscal Year Ending
                               June 30, 2003
  0-000-07-002-Q    01/19/07   Quality Control Review of Deloitte & Touche, LLP Audit of
                               Winrock International Institute for Agricultural Development
                               for the Fiscal Year Ended December 31, 2003
  0-000-07-003-Q    01/23/07   Quality Control Review of PricewaterhouseCoopers LLP’s
                               Audit of World Vision Inc. for the Fiscal Year Ending
                               September 30, 2003
  0-000-07-004-Q    02/13/07   Quality Control Review of Charchalis & Company, P.A.Audit of
                               U.S. - Ukraine Foundation for Fiscal Year 2004
  0-000-07-005-Q    02/13/07   Quality Control Review of the Deloitte & Touche, LLP Fiscal
                               Year 2004 Audit of The Asia Foundation

  0-000-07-006-Q    02/13/07   Quality Control Review of the Raffa, P.C. Fiscal Year 2003 Audit
                               of Pan American Development Foundation

  4-674-07-001-Q    01/31/07   Quality Control Review of the Closeout Audit of the READ
                               Educational Trust Under USAID Cooperative Agreement
                               No. 674-A-00-01-00002-00, for the Period April 1, 2002 to
                               March 31, 2003
  5-391-07-001-Q    10/06/06   Quality Control Review of the Audit Report and Audit
                               Documentation for the Financial Audit Conducted by KPMG
                               Taseer Hadi & Co. of the Aga Khan University – Examination
                               Board, USAID/Pakistan Cooperative Agreement
                               No. 391-A-00-03-01003-00, for the Period From July 1, 2003,
                               to December 31, 2004
  6-294-07-001-Q    10/30/06   Quality Control Review on the Audit of USAID Resources
                               Managed by Youth Project Developing Council Under Su-Grant
                               No. SC/VSP 001 From the Save the Children Federation Under
                               USAID Award No. 294-A-00-00-00073-00, for the Period From
                               May 1, 2001, to September 30, 2003
  6-294-07-002-Q    11/30/06   Quality Control Review of the Audit of USAID Resources
                               Managed by Catholic Relief Services Under Grant
                               Numbers: 294-A-00-02-000221-00 (JOBS) and
                               294-A-00-04-000217-00 (PINE) for the Period from
                               October 1, 2004, to September 30, 2005


                                                                                                   BU--Better Use of Funds

                                                                                                   QC--Questioned Costs

                                                                                                   UN--Unsupported Costs

                                                                                                   Note: UN is part of QC





Appendix A                                                                   SEMIANNUAL REPORT TO THE CONGRESS                49
                                                                                                          Amount of
         Report                 Date of                                                                    Findings   Type of
         Number                 Report                               Report Title                          ($000s)    Findings
     7-688-07-001-Q             11/30/06   Quality Control Review of FAACIM-Sarl Regarding the
                                           Audit of Local Currency Expenses Incurred by the Ministry
                                           of Agriculture Under the Sustainable Economic Growth
                                           Objective Program in Mali for the Period May 1, 1999 through
                                           December 31, 2003, Project No. 688-0273
     8-118-07-002-Q             12/18/06   Quality Control Review of RTF’s Audit of The Institute for
                                           the Economy in Transition, for Fiscal Year Ended
                                           December 31, 2006
     8-169-07-001-Q             02/05/07   Quality Control Review of KPMG’s Audit of the Special
                                           Purpose Fund Accountability Statement of America’s
                                           Development Foundation, for the Period July 15, 2001 to
                                           September 30, 2005

                                                                     --OTHER-­

     5-492-07-002-N             11/20/06   Financial Audit of USAID/Philippines’ Peso Trust Fund for
                                           Operating Expenses, for the Period from January 1, 2005 to
                                           December 31, 2005

     9-000-07-001-S             10/13/06   Survey of USAID’s Office of Transition Initiatives
     9-000-07-002-S             11/30/06   Survey of USAID’s Trade Capacity Building Programs to
                                           Support Implementation of Free Trade Agreements
     A-000-07-001-S             11/28/06   Agreed Upon Procedures for Assessing USAID’s Protection
                                           of Remote Personally Identifiable Information in Information
                                           Systems
     A-000-07-002-O             12/19/06   Independent Auditor’s Report on Applying Agreed-Upon
                                           Procedures for Assessing USAID’s Implementation of
                                           Section 522 of the Consolidated Appropriations Act of 2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





50      SEMIANNUAL REPORT TO THE CONGRESS                                                                              Appendix A
                     AUDIT REPORTS OVER SIX MONTHS OLD

                      WITH NO MANAGEMENT DECISION*

                              As of March 31, 2007

                                                                                     Desired
                                                                                     Decision
     Report                                  Issue          Current                   Target
     Number                  Auditee         Date     Recommendation Status            Date




                                       NOTHING TO REPORT




*Applies to USAID,ADF, and IAF.




Appendix B                                                 SEMIANNUAL REPORT TO THE CONGRESS    51
                        SIGNIFICANT AUDIT RECOMMENDATIONS

                         DESCRIBED IN PREVIOUS SEMIANNUAL

                           REPORTS WITHOUT FINAL ACTION

                                  As of March 31, 2007

                                                             USAID

                                                                                                            Final Action
        Report                                                             Issue     Rec.   Management         Target
        Number                           Subject of Report                 Date      No.    Decision Date       Date
     0-000-03-001-C   Report on USAID’s Consolidated Financial            01/24/03   2.2      01/24/03         06/07
                      Statements Internal Controls and Compliance for
                      Fiscal Year 2002
     9-000-05-001-P   Field Support Mechanisms in the Global Health       12/07/04    3       12/07/04         04/07
                      Bureau
     9-615-05-007-P   USAID/Kenya’s Implementation of the President’s     07/21/05    4       07/21/05         09/07
                      Emergency Plan for AIDS Relief
     9-000-06-003-P   USAID’s Reasonable Accommodation Policies and       12/13/05    3       12/13/05         06/07
                      Procedures
     A-000-06-001-P   USAID’s Information Technology Governance Over      02/21/06    2       02/21/06         06/07
                      Its Phoenix Overseas Deployment and Procurement
                      System Improvement Program Projects                             3       02/21/06         06/07


                                                                                      4       02/21/06         06/07


                                                                                      5       02/21/06         06/07


                                                                                      6       02/21/06         06/07
     1-526-06-003-P   USAID/Paraguay’s Reproductive Health and Family     01/13/06    5       01/13/06         04/07
                      Planning Activities
                                                                                      6       01/13/06         04/07
     4-674-06-013-P   USAID/South Africa’s Progress in Implementing the   08/11/06    3        8/11/06         05/07
                      President’s Emergency Plan for AIDS Relief
     9-521-06-010-P   USAID/Haiti’s Management of P.L. 480 Non-           09/28/06    1       09/28/06         04/07
                      Emergency Monetization Program




52      SEMIANNUAL REPORT TO THE CONGRESS                                                                       Appendix C
                                                                                                         Final Action
     Report                                                            Issue      Rec.   Management         Target
     Number                        Subject of Report                   Date       No.    Decision Date       Date
 9-000-06-009-P   USAID’s Development Credit Authority                09/25/06      1       09/25/06        04/07


                                                                                    2       09/25/06        04/07


                                                                                    3       09/25/06        04/07


                                                                                    4       09/25/06        04/07
 4-623-06-014-P   USAID Activities in Limited-Presence Countries in   09/21/06      1       09/21/06        06/07
                  Eastern Africa
                                                                                    2       09/21/06        06/07


                                                                                    3       09/21/06        06/07


                                                                                    5       09/21/06        06/07
 1-523-06-006-P   Completeness of USAID/Mexico’s Work Plan            06/02/06      1       06/02/06        04/07
                  Deliverables
                                                                                    2       02/01/07        05/07
 9-000-06-007-P   USAID’s Procurement Evaluation Program              05/11/06      2       05/11/06        04/07
 4-663-06-009-P   USAID/Ethiopia’s Compliance with Financial Audit    05/31/06      2       05/31/06        06/07
                  Requirements Regarding Foreign Recipients
 4-615-06-011-P   USAID/Kenya’s Compliance with Financial Audit       07/31/06      5       10/13/06        11/07
                  Requirements Regarding Foreign Recipients
                                                                                    7       07/31/06        06/07
 4-656-06-015-P   USAID/Mozambique’s Compliance with Financial        09/22/06      1       12/18/06        04/07
                  Audit Requirements Regarding Foreign Recipients
                                                                                    2       09/22/06        06/07


                                                                                    3       09/22/06        04/07


                                                                                    4       09/22/06        06/07


                                                                                    5       09/22/06        04/07


                                                                                    6       09/22/06        04/07


                                                                                    7       09/22/06        06/07




Appendix C                                                                     SEMIANNUAL REPORT TO THE CONGRESS        53
                                                                                                           Final Action
        Report                                                            Issue     Rec.   Management         Target
        Number                        Subject of Report                   Date      No.    Decision Date       Date
     A-000-06-003-P   USAID’s Implementation of Key Components of        06/08/06    2       06/08/06         05/07
                      a Privacy Program for Its Information Technology
                      Systems                                                        3       06/08/06         05/07


                                                                                     4       06/08/06         05/07


                                                                                     5       06/08/06         05/07


                                                                                     7       06/08/06         05/07
     A-000-06-005-P   Selected Application Controls Over the Annual      09/27/06    1       09/27/06         07/07
                      Report Application System
                                                                                     2       09/27/06         07/07


                                                                                     3       09/27/06         07/07


                                                                                     4       09/27/06         07/07


                                                                                     5       09/27/06         07/07


                                                                                     7       09/27/06         07/07
     E-267-06-003-P   USAID/Iraq’s Local Governance Activities           07/10/06    3       10/30/06         04/07




54      SEMIANNUAL REPORT TO THE CONGRESS                                                                      Appendix C
                   SIGNIFICANT AUDIT RECOMMENDATIONS

                    DESCRIBED IN PREVIOUS SEMIANNUAL

                      REPORTS WITHOUT FINAL ACTION

                             As of March 31, 2007

                                                        ADF

                                                                                                    Final Action
     Report                                                       Issue      Rec.   Management
                                 Subject of Report                                                     Target
     Number                                                       Date       No.    Decision Date
                                                                                                        Date
 9-ADF-05-008-P   African Development Foundation’s Monitoring,   08/17/05      1       08/17/05        09/07
                  Reporting and Evaluation System
                                                                              14       08/17/05        09/07




                                                        IAF

                                                                                                    Final Action
     Report                                                       Issue      Rec.   Management
                                 Subject of Report                                                     Target
     Number                                                       Date       No.    Decision Date
                                                                                                        Date




                                            NOTHING TO REPORT





Appendix C                                                                SEMIANNUAL REPORT TO THE CONGRESS        55
                                 REPORTS ISSUED WITH QUESTIONED

                                     AND UNSUPPORTED COSTS

                                  October 1, 2006 through March 31, 2007

                                                                     USAID

                                                                                   Number
                                                                                   of Audit
                                                                                                                                                     1
                                   Reports                                         Reports          Questioned Costs          Unsupported Costs
                                                                                                                       2, 3                   2, 3
     A. For which no management decision had been made as of                           61               $112,181,049            $19,285,421
        October 1, 2006
                                                                                                                       4                       4
     B. Add: Reports issued October 1, 2006 through March 31,                          84                $27,981,538             $10,882,067
        2007

         Subtotal                                                                     145                $140,162,587            $30,167,488
                                                                                         5                              6                      6
     C. Less: Reports with a management decision made October                         70                $103,911,925             $20,168,517
        1, 2006 through March 31, 2007

         i.   Value of Recommendations Disallowed by Agency                                              $73,073,161              $1,594,974
              Ofﬁcials

         ii. Value of Recommendations Allowed by Agency Ofﬁcials                                         $30,838,764             $18,573,543
                                                                                                                       7                      7
     D. For which no management decision had been made as of                           61                $36,250,662             $9,998,971
        March 31, 2007



     1. Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General
        Act Amendments of 1988 (P.L. 100-504).

     2. The ending balance at September 30, 2006, for Questioned Costs totaling $101,808,446 was increased by $10,372,603 to reﬂect adjust­
        ments in prior period recommendations due to additional audit work performed; the ending balance at the same period for Unsup­
        ported Costs of $19,468,880 was decreased by $183,459 for the same reason.

     3. Amounts include $94,699,605 in Questioned Costs and $18,305,159 in Unsupported Costs for audits performed for the OIG by other
        federal audit agencies.

     4. Amounts include $12,941,467 in Questioned Costs and $2,905,593 in Unsupported Costs for audits performed for the OIG by other
        federal audit agenciesl.

     5. Unlike the monetary ﬁgures of this row, this ﬁgure is not being subtracted from the subtotal.

     6. Amounts include $95,009,052 in Questioned Costs and $18,366,707 in Unsupported Costs for audits performed for the OIG by other
        federal audit agencies.

     7. Amounts include $12,698,812 in Questioned Costs and $2,885,206 in Unsupported Costs for audits performed for the OIG by other
        federal audit agencies.




56     SEMIANNUAL REPORT TO THE CONGRESS                                                                                                Appendix D
                     REPORTS ISSUED WITH RECOMMENDATIONS

                        THAT FUNDS BE PUT TO BETTER USE

                        October 1, 2006 through March 31, 2007

                                                          USAID

                                                                                    Number
                                                                                    of Audit
                                        Reports                                     Reports        Dollar Value

  A. For which no management decision had been made as of October 1, 2006              0               $0

  B. Add: Reports issued October 1, 2006 through March 31, 2007                        2           $11,226,927

      Subtotal                                                                         2           $11,226,927

  C. Less: Reports with a management decision made October 1, 2006 through             2             $226,927
     March 31, 2007

       i.    Value of Recommendations Agreed to by Agency Ofﬁcials                                   $226,927

       ii. Value of Recommendations Not Agreed to by Agency Ofﬁcials                                   $0

  D. For which no management decision had been made as of March 31, 2007               1           $11,000,000




Appendix E                                                                   SEMIANNUAL REPORT TO THE CONGRESS    57
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, IAF, ADF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov


   Mail                  	USAID OIG HOTLINE
                          P.O. Box 657

                          Washington, DC 20044-0657



U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
          U.S.Agency for International Development 

                 Ofﬁce of Inspector General 

                 1300 Pennsylvania Avenue, NW 

                          Room 6.6D 

                    Washington, DC 20523


                        www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

        www.usaid.gov/oig/public/semiann/semiannual1.htm

